<html>
<title> - CRIMES AGAINST AMERICANS ON CRUISE SHIPS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                CRIMES AGAINST AMERICANS ON CRUISE SHIPS 
=======================================================================
                                (110-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 27, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

34-792 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
JUANITA MILLENDER-McDONALD,          WAYNE T. GILCHREST, Maryland
California                           FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              TED POE, Texas
BRIAN BAIRD, Washington              JOHN L. MICA, Florida
TIMOTHY H. BISHOP, New York            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................    vi

                               TESTIMONY

Bald, Gary, Senior Vice President, Global Chief Security Officer, 
  Royal Caribbean Cruises, Ltd...................................    48
Carver, Ken, President, International Cruise Victim Organization.    29
Dale, Terry, President, Cruise Lines International Association...    48
Dishman, Laurie..................................................    29
Hernandez, Salvador, Deputy Assistant Director, Federal Bureau of 
  Investigation..................................................    11
Hickey, John.....................................................    29
Justice, Rear Admiral Wayne, Assistant Commandant For Response, 
  United States Coast Guard......................................    11
Kaye, Larry, Senior Partner, Kaye, Rose and Partners.............    48
Klein, Ross A., Professor, Memorial University of Newfoundland...    29
Mandigo, Charles, Director of Fleet Security, Holland America 
  Lines, Inc.....................................................    48

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    66
Cummings, Hon. Elijah E., of Maryland............................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bald, Gary.......................................................    73
Carver, Kendall..................................................   100
Dale, Terry......................................................   133
Dishman, Laurie..................................................   157
Hernandez, Salvador..............................................   181
Hickey, John H...................................................   194
Justice, Rear Admiral Wayne......................................   239
Kaye, Lawrence W.................................................   246
Klein, Ross A....................................................   261
Mandigo, Charles A...............................................   278

                       SUBMISSIONS FOR THE RECORD

Hickey, John, 6 Exhibits.........................................   211
Justice, Rear Admiral Wayne, Assistant Commandant For Response, 
  United States Coast Guard, response to question from Rep. Coble    27

                        ADDITIONS TO THE RECORD

American Society of Travel Agents, Cheryl Corey Hudak, CTC, 
  President, statement...........................................   282
Cruise Shoppes, Shawn Tubman, President & CEO, statement.........   284
National Association Cruise Oriented Agencies, Mary S. Brennan, 
  ECC, and Donna K. Esposito, President, statement...............   285
Vacation.com, Steve Tracas, President & CEO, statement...........   286
Project: Safe Cruise, Tim Albright, statement....................   288

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                CRIMES AGAINST AMERICANS ON CRUISE SHIPS

                              ----------                              


                        Tuesday, March 27, 2007

                  House of Representatives,
     Committee on Transportation and Infrastructure
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable Elijah 
Cummings [chairman of the committee] presiding.
    Mr. Cummings. This Committee hearing is now called to 
order.
    Good morning to everyone.
    Before we begin, I ask unanimous consent that 
Representative Matsui, a member of the Committee on 
Transportation and Infrastructure, may sit with the 
Subcommittee today and participate in this hearing. And without 
objection, it is so ordered.
    I also commend Congresswoman Matsui for her leadership on 
this issue. Today's hearing was scheduled after a request was 
made by Ms. Matsui that we examine in more detail an issue that 
is of great concern to the estimated 12.6 million Americans who 
will take a cruise in 2007; and that is, the extent of crimes 
committed against Americans on cruise ships.
    Any American who travels abroad cannot expect the same 
level of law enforcement's protection by U.S. officials that 
they would have in the United States. And those who wonder 
about the whole cruise ship issue should understand that it is 
much different and much more unique than if someone were to 
simply visit Disney World.
    However, it is likely that many United States citizens who 
travel on cruises do not realize that when they step onto a 
cruise ship, even if it embarks from a United States port, they 
are probably stepping into a floating piece of Panama, or the 
Bahamas, or whichever foreign country whose flag the ship 
bears. In fact, aside from three ships operating on the 
coastwise trade in Hawaii, all of the estimated 200 ocean-going 
cruise ships worldwide are flagged in countries other than the 
United States. As such, the same laws and rights that protect 
United States citizens on U.S. soil do not apply on cruise 
ships.
    The FBI may not have jurisdiction over crimes that occur on 
the ship; particularly if the ship never enters a United States 
port. And the investigation of a crime may require the 
cooperation of many different national agencies. Further, the 
very nature of cruising, traveling with a transient population 
aboard a ship far from land, may make it difficult to secure a 
crime scene or ensure the collection and preservation of 
evidence adequate to be used in a trial in the United States.
    Again, this is another distinction between the cruise ship 
and visiting Disney World. And if a crime is not reported until 
the alleged victim returns to port, or even to their home, the 
scene of the event will likely be completely scrubbed down and 
all possible witnesses will have dispersed throughout the 
world.
    Significantly, available data suggests that there are few 
reported crimes on cruise ships. At a hearing in March 2006 
convened by the Committee on Government Reform, upon which I 
sit, cruise industry executives testified that 178 passengers 
on North American cruises reported being sexually assaulted 
between 2003 and 2005. During that same period, 24 people were 
reported missing and 14 others were reported being robbed.
    However, a key question that must be examined is whether 
this data presents a complete picture of the level of crime on 
cruise ships. Aside from the statistics reported by cruise 
lines, there is no reliable data collected by any independent 
source. Importantly, under United States law, crimes on cruise 
lines are required to be reported only if they occur within the 
12 mile limit of the United States territorial waters. Though 
cruise lines have been voluntarily reporting incidents and 
alleged crimes to the FBI for several years now, the FBI has 
not recorded a total number of incidents reported to it. 
Instead, the FBI has maintained records only on those cases for 
which it has opened case files, and these have numbered only 
about 50 to 60 per year.
    Thus, an important question that must be examined by this 
Subcommittee is whether the voluntary incident reporting 
system, organized just this week by the cruise industry, the 
FBI, and the Coast Guard, is adequate to capture the data 
needed to develop a reliable picture of the extent of crimes on 
cruise ships.
    Another important issue requiring examination is what, if 
anything, can be done to enhance the chance that those 
individuals who are the victims of crimes on cruise ships have 
a reasonable likelihood of receiving justice. In many cases, 
simply because of the nature of cruising, justice is a target 
floating precariously among shifting jurisdictional lines and 
far from the reaches of the FBI or other Federal agencies who 
may be many hours away. Those who cruise must understand that 
they are entering a floating world where United States laws do 
not directly reach.
    But we in Congress have a responsibility to nearly 13 
million of our citizens who cruise annually to ensure that, 
given the unique circumstances of cruising, cruise ships are, 
nonetheless, as safe as they can be. And so this is not a 
hearing to in any way beat up on the cruise industry. This is a 
hearing to bring some enlightenment so that when people save up 
their hard-earned money and make a decision to take a vacation 
on a cruise ship we can do everything in our power to maximize 
their opportunities to be safe.
    And with that, I recognize our Ranking Member, Mr. 
LaTourette.
    Mr. LaTourette. Mr. Chairman, thank you, and good morning 
to you and everyone else. Thank you very much for having this 
very important hearing. And thanks also to Congresswoman Matsui 
for her suggestion that we do it.
    The Subcommittee is meeting this morning to review the laws 
and regulations relating to the reporting, investigation, and 
prosecution of crimes and accidents that occur aboard cruise 
vessels. As the Chairman has indicated, each year more than 10 
million Americans vacation aboard cruise ships, and we need to 
make sure that the existing authorities under the current legal 
framework are adequate to deter and respond to all crimes that 
are committed against these Americans. If there are changes 
that are required to this framework to better equip passengers, 
the cruise lines, and Federal agencies with the tools necessary 
to prevent the occurrence of future crimes, I have every 
confidence that this Subcommittee, under the able leadership of 
Chairman Cummings, will move quickly to address those 
shortcomings.
    Almost every cruise vessel that leaves from a United States 
port carries passengers on a voyage to international waters or 
locations outside of the United States. As a result, the 
investigation of crimes and accidents that occur aboard cruise 
vessels are governed by a complicated and tangled assortment of 
U.S., foreign state, and international laws, treaties, and 
industry practices. I hope as we listen to our witnesses today 
that they will speak to the challenges that these competing 
areas of jurisdiction cause and whether there are any specific 
actions that they would recommend to the United States Congress 
to improve coordination and cooperation among all of the 
entities involved.
    One issue that I would very much appreciate if the 
witnesses would address in their testimony is the apparent 
discrepancy between the offenses that fall under the 
jurisdiction of the United States law and the alleged crimes 
that must be reported to the Coast Guard and the Federal Bureau 
of Investigation. Speaking only for myself, I fail to 
understand why the law appears to have one set of rules for 
reporting a crime and another set of rules for investigating 
and prosecuting that crime under the laws of the United States.
    The cruise industry is an important component of our 
national economy and the economy of many coastal states. It is 
in the interest of the industry to take such actions as are 
necessary to deter the incidents of serious accidents and 
crimes on cruise ships to the greatest extent possible.
    I want to thank all of the witnesses who are set to appear 
today.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman. I want to thank you, 
Chairman Cummings, and Mr. LaTourette for holding today's 
hearing concerning the cruise industry. You are two of the 
fairest Members of Congress and I am glad you will be presiding 
over this hearing.
    As a member of the Florida delegation and the 
Representative of the Port of Jacksonville, I have particular 
interest in the cruise industry. The cruise industry is the 
most important economic engine in the State of Florida; over 
4.8 million passengers embarked from Florida in 2005, and the 
industry contributes more than $5.5 billion in direct spending. 
In addition, the cruise industry is the second largest employer 
in Florida, generating more than 128,000 jobs.
    The cruise industry is highly regulated by the State, 
Federal, and international laws. They ensure that their 
passengers are safe and have a sound, safe, and secure record. 
It is apparent from the FBI statistics that crime against U.S. 
passengers on cruise ships are rare. Indeed, cruise ships are a 
very controlled environment with entry and exits being well-
documented. I do not downplay the incidents that have occurred, 
and while I express my condolences to the families of the 
victims, it is important to put these incidents in perspective.
    The rate of crime aboard cruise vessels is far less than 
the national crime average or the crime rate in a U.S. city of 
comparable size in population. Unfortunately, crime happens 
wherever people gather. But the important thing is that the 
risk is minimal and that procedures are in place to make sure 
that crimes are investigated throughout and in a uniform 
manner. The FBI, which is testifying here today, can attest 
that the cruise industry has comprehensive security programs 
and crime-reporting procedures in place on all of their 
passenger vessels.
    A leisure cruise is one of the most popular vacation 
options because of the excellent safety record and the high 
quality of service provided on board. I look forward to working 
with the Committee to continue to ensure that safety and the 
well-being of passengers on cruise ships is maintained.
    In closing, let me just say in my prior life I owned three 
travel agencies and a cruise is one of the most comprehensive 
vacations a person can take. Sixty percent of the people who 
took a cruise were second time passengers, whether it was 
honeymoons, clubs, church groups. So it is a very important 
industry for our 14 ports in Florida.
    I am looking forward to this hearing and to working with 
the Committee. Thank you both, Chairman and Ranking Member.
    Mr. Cummings. Thank you very much, Ms. Brown.
    Our Ranking Member of the full Committee on Transportation 
and Infrastructure, Mr. Mica.
    Mr. Mica. Thank you, Chairman Cummings.
    First of all, I want to associate my remarks with the 
comments of my colleague from Florida, Ms. Brown. She very 
eloquently stated the importance of the cruise industry to our 
economy in Florida. I believe, like Ms. Brown, that for 
millions of Americans cruising has proven to provide a safe and 
economical way for many individuals to travel to see locations 
and parts of the world that would not otherwise be available to 
them. As Ms. Brown said, in our State, the cruise ship industry 
is part of a multi-million dollar tourism industry that 
provides hundreds of thousands of jobs. It is a great boost to 
some of our local, and State, and national economies.
    However, I think both Ms. Brown and I share concern, and we 
believe that it is important that Congress, the cruise 
industry, and all levels of law enforcement do everything 
possible to make certain that cruise passengers are as safe and 
secure as possible. Ms. Brown and I also represent the Daytona 
Beach area. We just finished Bike Week and we have actually 
done a great deal of improvement in enforcement in Bike Week. 
We have about a half-a-million people visit the Daytona Beach 
area during Bike Week. This year I think we lost seven 
individuals as a result of motorcycle accidents. Last year I 
believe we lost 27 individuals coming for tourism to enjoy 
themselves and participate in a great weekend activity. But 
with any tourism activity, there is risk and it is important 
that we put in place measures to ensure people's safety and 
security.
    Mr. Cummings, the Chair, also stated, very appropriately, 
the difficulty we have with the cruise industry in that they 
may come in and pick up passengers at a Florida city, or 
Baltimore, Jacksonville, New York, wherever it may be, but in 
just a few hours they are in international waters, they are 
travelling to international ports. We have a very complex 
situation as far as laws and liability. But U.S. law 
enforcement agencies I think should be responsible for 
investigating crimes against American citizens--interview 
victims, and examine crime and accident scenes--and we want to 
make sure there is a mechanism for doing this.
    I appreciate the Transportation Committee and this 
Subcommittee reviewing this matter. However, I am also on the 
Committee on Government Reform, you will hear from Mr. Shays in 
a few minutes, and I participated in hearings in the 109th 
Congress with him and other Members. During those hearings we 
received testimony from Federal agencies, the cruise line 
industry, legal scholars, members of victims' families 
examining some of the issues that we will hear again today.
    We have made some progress. I commend the cruise industry, 
the FBI, the Coast Guard for working on a protocol to improve 
the reporting of crimes and accidents involving Americans on 
cruise ships. Implementation of this protocol I am hopeful will 
address the concerns of the cruise ship industry critics and 
also hopefully address some of the delays that have lead to the 
failure to prosecute crimes and to find accident victims in a 
timely manner.
    Again, this is a very important issue to us in Florida. I 
might say in closing, I look at the different tourism 
activities--we have Disney World, Sea World, I mentioned the 
different activities like Bike Week that we host--and there is 
no tourism business in Florida, or in the United States, or 
anywhere in the world that provides a better check on its 
employees, a more thorough identification of their guests, 
every guest has a photo I.D. card, and also records of guests 
entering and exiting the property or the ship, there is no one 
that compares in having personally checked and examined some of 
the system. Yes, there is room for improvement and I hope from 
this hearing today we will hear what progress has been made and 
what other measures can be taken.
    Then, in closing, Ms. Brown mentioned the safety of cruise 
ship activities and of an individual on a cruise ship versus 
major metropolitan areas. I have some of the actual statistics. 
One of the safest places in the world to be is on a cruise 
ship, and the statistics will prove it. Finally, Mr. Chairman, 
I would ask that these statistics be made part of the record.
    Mr. Cummings. Without objection, so ordered.
    We will now go to Mr. Bishop and then we will come back to 
you, Ms. Matsui. Mr. Bishop?
    Mr. Bishop. I have no opening statement at this time, Mr. 
Chairman.
    Mr. Cummings. Very well. Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. I would like to thank 
you very much for calling this very important hearing. I 
appreciate your willingness to bring this issue before the 
Committee and to conduct a thorough and fair hearing of crime 
on cruise ships.
    I asked Chairman Cummings to hold this hearing because a 
young woman from my district came to me for assistance after 
she had been a victim of violent crime on a cruise ship. That 
young woman, Laurie Dishman, is here with us today.
    Laurie shared a shocking story with me in a letter one year 
ago. As a passenger on board the Vision of the Seas, a ship 
operated by Royal Caribbean, Laurie was raped by a crew member. 
The story of her ordeal on the ship was shocking enough. 
Unfortunately, I soon learned that was only the beginning.
    Laurie wrote to tell me she was having difficulty getting a 
response to her request for information about the incident from 
the cruise line. As I began looking into the matter, a number 
of red flags were raised regarding the handling of Laurie's 
particular case, from the FBI decision not to have a polygraph 
test of the crew member, to the cruise line withholding 
Laurie's own medical information.
    These incidents beg the question: What is the process when 
a crime is committed on a cruise ship, and what recourse do 
passengers have?
    The more I have inquired, the more I have been alarmed that 
there is no shortage of cases of rape, sexual assault of 
minors, alcohol-related fighting and abuse, and persons 
overboard. Ever more troubling, most of these incidents have 
not been fully resolved or prosecuted. The onion it seems has 
only more layers to peel back.
    Laurie's case was declined for prosecution under 
circumstances that strongly suggest Federal authorities did not 
fully investigate her case and that cruise industry 
representatives have coached the crew member in his testimony. 
I have since learned that there have been no convictions of 
rape cases on cruise lines in four decades, a statistic that 
takes on a new meaning through the lens of Laurie's experience.
    Cruise industry executives testified last year before the 
House Government Reform Committee that 66 cases of sexual 
assault were reported by Royal Caribbean between 2003 and 2005. 
However, as a result of a civil suit, Royal Caribbean was 
forced to turn over internal documents that showed that the 
numbers were actually much higher, specifically, the number was 
273. I have also come to learn that crimes that were not 
reported involved minors. It seems impossible that Royal 
Caribbean would not consider these crimes worthy of reporting. 
This time around I want to know whether the industry has 
accurately depicted the number of sex crimes on ships, and how 
it chooses to define the crimes.
    The cruise industry states that they are the safest form of 
transportation. Some representatives have also said some 
cruises are safer than being on shore. I find such claims to be 
dubious, at best, but they also ignore a critical problem--at 
least on land we have a police force and law governing people's 
actions, and most of all, consequences for these actions based 
on laws.
    Americans who go on cruise ships for a family vacation have 
no idea they may be stepping into a situation in which U.S. law 
has little power and where they may be victims of a crime 
without recourse. Cruises operate in a legal vacuum, where lack 
of accountability empowers predators and obstructs their 
victims' pursuit of justice. That is an unacceptable situation, 
made worse by the cruise lines' own efforts to block scrutiny 
of and accountability for their own handling and security of 
their passengers.
    My hope for this hearing is that the cruise lines finally 
take these crimes seriously and enact necessary reforms. I am 
sure that after hearing from Laurie you will come to the same 
conclusion I have: that we must make sure something like this 
never happens again. I appreciate Laurie's determination and I 
am very proud to be here with her in this effort. I am 
confident that from this hearing we will have a better 
understanding of what actions we must take to ensure the safety 
and security of the over 10 million Americans who will travel 
on cruise ships this year. I thank you very much, Mr. Chairman.
    Mr. Cummings. Thank you, Ms. Matsui.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I will not use the five 
minutes. I want to thank you and the distinguished gentleman 
from Ohio for having called this hearing.
    Not unlike Mr. Mica, the Ranking Member of the full 
Committee, I do believe that the cruise industry generally and 
on balance contributes very favorably to our overall economy 
and I think, for the most part, conduct themselves responsibly. 
Now I have never sailed as a passenger aboard a cruise ship so 
I have no on board evidence that will be enlightening today, 
nor have I talked to anyone who has been a victim. But I do 
believe that when passengers report aboard they have every 
right to assume that they will enjoy a safe cruise. We have 
victims, I am told, who will appear subsequently.
    I look forward to this hearing, Mr. Chairman, and I thank 
you all again for having called it. I yield back.
    Mr. Cummings. Thank you very much, Mr. Coble. The Chairman 
of the Transportation and Infrastructure Committee, Mr. 
Oberstar.
    Mr. Oberstar. I thank you, Mr. Chairman. I will submit my 
statement for the record. This is a hearing that is long 
overdue, one about which we have been receiving deeply 
disturbing reports. Ms. Matsui has already expressed, and you 
have stated in your opening remarks, issues that have to be 
addressed.
    There are 10 million passengers a year on cruise lines in 
the United States. It is a huge business, a massive multi-
billion dollar business. These ships are the size of small 
cities; they do not have a police force, they have security 
guards, they do not have crime victim counselors, they have 
customer service representatives.
    It is a very different situation on board a ship than on 
land. When you step on a ship you do not realize maybe you are 
stepping into another country--Liberia, Panama, another flag of 
convenience country in which the vessel is registered. In other 
instances we have crews aboard ship who have been told, well, 
if you have a problem, you go file your lawsuit in the country 
of origin where you came from or where the ship is flagged. Not 
much justice in some of those places. So the U.S. courts are 
the point of reference and point of justice.
    People want to know that everything has been done by the 
cruise line that should be done to prevent a crime from 
happening, they want to be treated fairly, compassionately, 
comparably to what happens in the domestic airlines. We had 
very serious problems in aviation and the airlines, with the 
Department of Transportation, developed a code of conduct and a 
Passenger Bill of Rights. And now we find that they in several 
instances have not lived up to their own Passenger Bill of 
Rights.
    So there are a whole host of issues we have to deal with. 
Not to dwell on, but the fact that local police have to 
investigate these crimes and there may be different police 
forces in different ports. So I just frame a little part of the 
issue, Mr. Chairman, your hearing will cover the broad scope of 
issues here. We need to hear those and hear them fairly and 
then determine what action needs to be taken appropriately. I 
want to thank Mr. Shays for coming here this morning as well, 
and Mr. LaTourette for his diligence and participation in the 
hearing. Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I appreciate your holding 
this hearing. In my prior life I was a judge in Texas for 22 
years and saw about 25,000 people charged with everything from 
stealing to killing, but I also saw a good several thousand 
victims work their way to the courthouse as well. I am the 
founder of the Victim's Rights Caucus, a bipartisan caucus, to 
promote victim's concerns in Congress. And while it is true 
that the cruise industry probably has generally a safe record 
regarding crime on board, generally a safe record is not good 
enough. One victim is one victim too many. And I notice there 
are plenty of victims here, some will not be able to testify 
today but I want to thank you for being here.
    I am especially concerned about sexual assault that occurs 
on cruise lines in international waters. The victims that I 
have talked to have told me generally when they report this to 
somebody, because they do not know even who to talk to first, 
the response they get is: sorry, there is nothing we can do. 
That is not acceptable. We have to take care of American 
citizens in international waters. Wherever crime occurs onboard 
a ship, if there is an American citizen involved as a victim, 
this Nation needs to be very concerned and the answer shall 
never be: sorry, there is nothing we can do.
    So I look forward to figuring out a solution with the 
cruise industry, the FBI, and Congress to come up with a 
protocol, a plan so that when a victim is victimized onboard 
ship somebody cares about them, and it better be the American 
Government.
    With that, Mr. Chairman, I yield back my remaining time.
    Mr. Cummings. I want to thank you, Mr. Poe, for your 
statement. I think you pretty much struck the balance we are 
trying to strike in this hearing, trying to make sure that we 
are fair across the board and to try to come up with solutions.
    To that end, we are very pleased to have Congressman 
Christopher Shays from Connecticut's fourth district. In the 
109th Congress, Mr. Shays convened two hearings on crimes on 
cruise ships in the Committee on Government Reform, in which as 
a member of the committee I also participated. Those hearings 
laid much of the groundwork for the issues to be covered today, 
including examining the shortcomings in the reporting of crimes 
on cruise ships to Federal officials.
    Before you start, Mr. Shays, I have read all the testimony 
over the last few days that is going to be presented today, and 
there is one issue I think, going back to what Congressman Poe 
just said, trying to find a solution to the problem, the FBI 
and the Coast Guard, and I understand the cruise ship industry 
has not signed on yet, but have some agreement for reporting. I 
want you in your comments to comment on that solution. Because 
that is what has been presented as a solution, certainly by all 
of these agencies, in trying to come to some kind of fair 
resolution. So I would appreciate it if you would make that a 
part of your comments.
    Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman. Mr. Cummings, 
I know you well, I know you, Mr. LaTourette, well, and you are 
both extraordinarily fair but you are also dogged in wanting to 
know the truth. And I thank the Chairman of the full Committee 
and all the Members. Thank goodness this is now before your 
Committee and not just before our Committee which could 
investigate and recommend. You can really work toward some 
solutions.
    I want to just say we were first triggered to have our 
hearing in March of 2006 when I was reading about a 
constituent, George Smith IV, who was on a honeymoon and he was 
viewed as missing and his new wife was crying out for someone 
to pay attention. At first, the cruise line acted like he was 
just overboard. And then it was fairly clear as they began to 
look at this there was much more to the story--blood on the 
side of the ship and so on.
    But what really outraged me was how she was treated. So we 
wanted to look into this because we realized that you have 
about seven different nations involved in the process. You have 
the passenger, the port of departure, the port of call, whether 
it is in a certain territory of a port of call, the ship 
ownership, where the ship is flagged, are you in open waters 
where then the ship is in charge, and then you have the staff 
and the staff can be from who knows where, and then you learn 
that this is like a floating city and they say they compare 
statistics to cities but they do not divide by 52 weeks a year 
to get the number to be more accurate. And then you say, well, 
if you are like a city, let me talk to your police officers. 
Well, they do not have them. Then you say let me talk to 
someone skilled in investigation. They do not have them.
    What I suspected would happen did happen, that if we had 
this hearing we would start to hear other stories. You are 
going to hear from a witness that I get outraged every time I 
think about it. Ken Carver, he did not know where his daughter 
was. She was not in communication with him. So he had to get a 
private investigator, and he spent I think about $70,000, to 
find out where his daughter was.
    He learned that a few weeks earlier, maybe a few months 
earlier, his daughter was onboard ship. Now you are going to 
learn that when she was onboard ship she was viewed as missing 
by the steward because she did not seem to come back to her 
cabin. Now I realize that sometimes people may not go to their 
cabin, they may go to some other cabin. But you want to begin 
to be aware.
    So he had no bed to make up all week, and he told his 
superiors. And then when the ship came to port, they just 
grabbed all her stuff because she did not come to pick up her 
belongings. I think that could be a warning. And they took her 
stuff to something like a lost and found and then just disposed 
of it. Never notified anyone in the family. How outrageous is 
that? She may have been killed. She may have committed suicide. 
Who knows?
    I would say to you, and I agree with Ms. Brown and with Mr. 
Mica, cruise lines give you the best vacation. I do not doubt 
that. And I do not doubt they are the best deal in town. I have 
friends who love them. But there is an outrage going on and it 
relates now to the fact that you are going to hear from Laurie 
and she is going to tell you that in her court case, first she 
is going to tell you how she was treated, which is outrageous, 
she was basically ignored, put off, so she had to take action, 
there are statistics that are presented in court and affidavit 
that disagree with what people gave us when they were sworn in 
in our Committee.
    So now getting to your point, Mr. Chairman. I do not trust 
the statistics the cruise line industry is giving us. I trust 
what they might give to the courts, but even then I wonder. So 
the first thing that we should be doing, clearly, is gathering 
statistics on murders, rapes, those that are missing, sexual 
assaults, maybe even serious accidents, and what about thefts. 
You are going to learn that if someone steals a $5,000 watch 
the cruise industry does not give a damn. They do not care.
    Now, if it is worth $10,000 or more, they might pay 
attention. They have this threshold. But I think passengers 
need to know the statistics. How many times has there been a 
murder onboard the ships? When was the last one? How many 
people have gone missing onboard the ships? How many thefts 
onboard the ships? How many rapes onboard the ships? That is 
just providing them information, and then provide it to the 
government as well.
    And let me just conclude by saying to you that statistics 
are the most important thing. Secondly, they must be 
transparent. You are doing the right thing. You all get it. I 
do not need to say anything more. But you have some precious 
people who are, in fact, victims. They need to be heard and 
their complaints need to be dealt with, and you are the perfect 
Committee to deal with this. And Ms. Matsui, thank you for 
bringing this forward and encouraging it. You are going to do 
some good things. And in the end, the cruise industry itself 
will benefit. Thank you.
    Mr. Cummings. Any questions of Mr. Shays from members of 
the panel?
    [No response.]
    Mr. Cummings. Thank you very much, Mr. Shays. We really 
appreciate your leadership and your being here.
    We will now move on to our first panel. Mr. Salvador 
Hernandez, Deputy Assistant Director of the Federal Bureau of 
Investigation, and Rear Admiral Wayne Justice, Assistant 
Commandant for Response with the United States Coast Guard. We 
have your full statements and we are going to limit your oral 
remarks to five minutes. We have quite a few witnesses today. 
We thank you for being here.
    Mr. Hernandez.

  TESTIMONY OF SALVADOR HERNANDEZ, DEPUTY ASSISTANT DIRECTOR, 
 FEDERAL BUREAU OF INVESTIGATION; REAR ADMIRAL WAYNE JUSTICE, 
  ASSISTANT COMMANDANT FOR RESPONSE, UNITED STATES COAST GUARD

    Mr. Hernandez. Thank you, Mr. Chairman. Good morning 
Chairman Cummings, Ranking Member LaTourette, and members of 
the Subcommittee. I appreciate the opportunity to be here today 
and address the FBI's role in investigating crimes against 
American citizens traveling aboard cruise ships. I am happy to 
address some of the concerns raised by the Subcommittee 
members, and specifically Congressman Matsui's concerns. But I 
would like to begin with my prepared comments.
    Mr. Chairman, the FBI is committed to addressing piracy and 
serious criminal acts of violence and is dedicated to working 
with our partners at every level to investigate and prosecute 
crimes on the high seas. We will do everything in our power to 
uphold our mission of protecting our fellow citizens from crime 
and terrorism.
    First, I would like to briefly discuss by what means the 
FBI obtains its jurisdiction over crimes committed on cruise 
ships. The authority of the FBI to investigate criminal 
offenses and enforce laws of the United States on cruise ships 
on the high seas, or territorial waters of the United States, 
depends on several factors. The location of the vessel, the 
nationality of the perpetrator of the victim, the ownership of 
the vessel, the points of embarkation and debarkation, and the 
country in which the vessel is flagged all play a role in 
determining whether there is Federal authority to enforce the 
laws of the United States.
    The principal law under which the United States exercises 
it Special Maritime and Territorial Jurisdiction is set forth 
in Title 18, Section 7 of the United States Code. This statute 
provides, in relevant part, that the United States has 
jurisdiction over crimes committed on a ship if:
    One, the ship, regardless of flag, is a U.S.-owned vessel, 
either whole or in part, regardless of the nationality of the 
victim or the perpetrator, when such vessel is within the 
admiralty and maritime jurisdiction of the United States and 
out of the jurisdiction of any particular state;
    Two, the offense by or against a U.S. national was 
committed outside the jurisdiction of any nation;
    Three, the crime occurred in the U.S. territorial sea, 
which is 12 miles outside the coast, regardless of the 
nationality of the vessel, the victim, or the perpetrator; or
    Four, the victim or perpetrator is a U.S. national on any 
vessel during a voyage that departed from or will arrive in a 
U.S. port.
    There has been interest in the FBI's ability to investigate 
outside the U.S. or its territorial waters. When an incident 
occurs outside the territorial waters of the United States, 
numerous other factors come into play in determining the FBI's 
role and ability to investigate. In addition to the laws of the 
United States, the laws of other nations and international law 
will determine our legal authority to respond to and/or 
investigate the crime. As these incidents may involve the 
citizens or interests of other countries, The FBI's 
investigative efforts may implicate the sovereignty or 
interests of other involved nations. Resolution of these 
questions requires consultation and coordination with the U.S. 
Government.
    The FBI has posted a number of senior level agents in 60 
legal attache offices, or Legates, and 13 sub-offices around 
the world. Through established liaison with principal law 
enforcement officers in designated foreign countries, the FBI's 
Legates are able to pursue investigative activities where 
permissible. The Legate's authority to conduct investigations 
overseas or to coordinate extraterritorial teams' 
investigations abroad varies greatly and must be determined by 
each Legate on a country-by-country, case-by-case basis. The 
Legates coordinate closely with the Department of Justice's 
Office of International Affairs, which provides assistance in 
international criminal matters to U.S. and foreign 
investigators, prosecutors, and judicial authorities, primarily 
in the international extradition of fugitives and evidence 
gathering, and with the Department of State.
    I would like to provide a brief summary of trends of crimes 
on the high seas that the FBI has responded to and investigated 
over the last five years. The following trends are based on 
these statistics.
    From fiscal year 2002 through February of 2007, the FBI 
opened 258 cases of crime on the high seas, or approximately 50 
cases opened annually. Of these 258 cases, 184, or 71 percent, 
occurred on cruise ships. The remaining cases involved private 
vessels, commercial ships, and oil platforms. Of the 184 cases 
that occurred aboard a cruise ship, 84, or 46 percent, involved 
employees as suspects.
    Sexual assault and physical assaults on cruise ships were 
the leading crime reported to and investigated by the FBI on 
the high seas over the last five years, 55 percent and 22 
percent respectively.
    Most of the sexual assaults on cruise ships took place in 
private cabins and over half were alcohol-related incidents. 
Employees were identified as suspects in 37 percent of the 
cases, and 65 percent of those employees were not U.S. 
citizens. Employee on employee assaults made up approximately 2 
percent of the total cases opened. Fifty-nine percent of the 
sexual assault cases from fiscal year 2002 to February of this 
year were not prosecuted, and the typical reasons for 
prosecutive declinations were lack of evidence, indications 
that the act was consensual, and/or contradictory victim or 
witness statements.
    Physical assaults were the second most frequent crime upon 
the high seas with 53 cases opened.
    Missing persons on cruise ships comprised only 12, or 5 
percent of the cases opened during this period. Missing persons 
were sporadic in nature, and did not appear to have any 
significant pattern. There were slightly more cases opened on 
cruise ships and private vessels than fishing vessels and other 
commercial crafts. It is difficult to draw any conclusions from 
these cases due to the inability to locate bodies in all cases. 
Using eyewitness testimony, investigators were able to surmise 
that alcohol was involved in at least 42 percent of these 
cases. Investigations were typically closed with indications of 
suicide or accident; however, in about 25 percent foul play was 
suspected. Missing person cases yielded no prosecutions over 
this period of time, and none of the victims were minors.
    In terms of our reporting, in accordance with Federal 
regulations contained in Title 33 of the Code of Federal 
Regulations, passenger vessels covered by regulation must 
report to the FBI each breach of security, unlawful act, or 
threat of an unlawful act against passenger vessels or any 
person aboard when such acts or threats occur in a place 
subject to the jurisdiction of the United States.
    Over the past several months, the FBI has been engaged in 
discussions with the cruise lines through CLIA, the Cruise 
Lines International Association, and the U.S. Coast Guard 
regarding the establishment of procedures relating to the 
reporting of serious violations of U.S. law committed aboard 
member cruise lines outside the mandatory reporting 
requirements that are already in place under 33 C.F.R.
    Under these proposed procedures, and I will mention that 
these procedures have been adopted by the cruise line industry 
by a letter that was submitted just yesterday that tells us 
that they have enthusiastically adopted these measures, CLIA 
members will telephonically contact the nearest FBI field 
office or Legate office as soon as possible to report any of 
the following incidents involving serious violations of U.S. 
law: homicide, suspicious death, missing U.S. national, 
kidnapping, assault with bodily injury, sexual assaults, firing 
or tampering with vessels, and theft greater than $10,000.
    If CLIA members are unable to contact the FBI Legate, they 
will contact the FBI field office located closest to their 
security office. After telephonic contact, CLIA members will 
follow up with a standardized report. CLIA members will submit 
reports to the Coast Guard either by facsimile or e-mail, and 
they will also submit those reports to the FBI headquarters for 
tracking purposes, and to the field office that is affected.
    Incidents not falling into one of the above categories, and 
therefore not requiring immediate attention by the FBI, may be 
e-mailed or faxed to the FBI field office; for example, a theft 
greater than $1,000 but less than $10,000.
    If criminal activity aboard a CLIA member vessel does not 
meet the above reporting criteria, CLIA members may report the 
incident to the proper state or local law enforcement authority 
and, if applicable, to foreign law enforcement. The decision to 
continue and/or conduct additional investigation of crimes 
within the jurisdiction of a state or local law enforcement 
agency will be at the sole discretion of the respective state 
or local agency.
    Currently, the FBI tracks only the number of cases opened. 
However, we have established a system that will compile reports 
of all incidents submitted by the cruise lines.
    I have other information regarding training but I will save 
those since I am over my time. Thank you.
    Mr. Cummings. Admiral Justice, before you start, I hope 
that you will convey to the members of the Coast Guard our 
congratulations from Subcommittee and full Committee on them 
making the largest seizure of drugs in the history of the Coast 
Guard, and also thank them for their assistance over the 
weekend when folks fell overboard. Since you all are the 
subject of our Subcommittee, we want to make sure we recognize 
all the good things that the men and women of the Coast Guard 
do every day. Please.
    Admiral Justice. Thank you, sir. I really appreciate that. 
It was a real good seizure.
    Good morning Chairman Cummings, Ranking Member LaTourette, 
and Subcommittee members. As we see today, crimes on cruise 
ships are receiving increasing attention from Congress, the 
media, victims' rights groups, law enforcement, and the cruise 
industry.
    Given the global, multinational operational and legal 
structure of cruise ship operations, responsibilities for 
reporting, responding to, investigating, prosecuting, and 
adjudicating these crimes on cruise ships are distributed among 
a variety of nations, organizations, and individuals around the 
world. In considering response options of the United States to 
crime on cruise ships, the Coast Guard is mindful of the 
essential operational an legal environment in which many 
cruises occur, as has been stated many times this morning.
    As a practical matter and consistent with well-settled 
principles of international and U.S. domestic law and practice, 
this operational construct allocates most criminal jurisdiction 
with respect to extraterritorial cruise ship crime to flag 
states or coastal states, not the state of the passenger's 
nationality. This same framework allocates investigative and 
enforcement jurisdiction to flag or other coastal states, not 
U.S. law enforcement agencies, with respect to criminal 
activities that occur beyond the foreign flag cruise ship 
operating beyond the 12 mile U.S. territorial sea.
    United States law enforcement agencies do have a role, 
albeit limited, to play in preventing, investigating, and 
responding to crime aboard foreign cruise ships operating 
beyond U.S. territorial seas, most often when such vessels call 
on a U.S. port. In this limited circumstance, both 
international and U.S. domestic law permit the exercise of U.S. 
criminal jurisdiction for certain serious offenses committed 
aboard foreign flag cruise ships operating seaward of U.S. 
territorial waters. When these cases arise, the Coast Guard 
employs the President's Maritime Operational Threat Response, 
MOTOR, plan to coordinate the real time Federal response as 
well as to request and provide response and investigative 
assistance to similarly situated foreign governments.
    The legal environment aboard foreign flag cruise ships does 
not mean that cruise ships are or should become havens for 
lawlessness. The legal environment does mean that prompt 
reporting of serious crimes by cruise passengers and the cruise 
industry coupled with investigative cooperation among coastal 
and flag states is essential to preserving cruise ship security 
and safety.
    Further, prospective cruise ship passengers need to assess 
the level of security and safety on cruise ships on which they 
embark just like they would evaluate their safety and security 
risks when visiting a foreign country. Working closely with the 
FBI and CLIA, the Coast Guard has participated in the 
development of voluntary procedures relating to the reporting 
of serious violations of U.S. laws committed aboard cruise 
ships and the FBI's response to such violations.
    The FBI will, on an annual basis, compile information 
provided by the cruise lines and prepare a comprehensive 
report. This report will be provided to CLIA, and to our 
knowledge represents the first disciplined effort to gather 
serious crime statistics with respect to cruise ships 
frequented by U.S. nationals. This data will permit some 
analysis of trends and comparison with other maritime and 
tourism venues.
    Those of us who have made a profession of maritime security 
continue to undertake significant initiatives to better protect 
U.S. citizens and U.S. interests throughout the maritime 
domain. It is clear that some serious acts affecting U.S. 
nationals aboard foreign flagged cruise ships have brought 
great sadness to victims and the families of victims. The Coast 
Guard mourns the losses and we are committed to improving the 
overall safety and security environment within the maritime 
domain.
    We recognize the collective jurisdictional and resource 
limitations of the United States, but we see viable strategies 
to improve the safety and security of U.S. nationals aboard 
cruise ships by leveraging partnerships with industry and 
international partners, as well as improving transparency for 
consumers. We believe the proposed voluntary cruise ship crime 
reporting procedures are an excellent step in the right 
direction to improve awareness of and response to serious 
criminal activities on cruise ships.
    Thank you, sir, for the opportunity to testify before you 
today. I am happy to answer any questions you may have.
    Mr. Cummings. I want to thank both of you for your 
testimony. I want to pick up where you left off, Admiral. One 
of the things that we are trying to do today is to make sure 
that we have a measured response to a problem. I think Ms. 
Brown talked about fairness and others have talked about 
fairness and having balance.
    You just talked about the agreement that was entered into, 
both of you mentioned it. I want to go back to your testimony, 
Admiral, I was reading it at 4:00 this morning and it was very 
interesting, but on page 5 of your testimony you talk about the 
agreement. You say ``these data will permit some analysis of 
trends and comparison with other maritime and tourism venues.'' 
You go on to say ``The Coast Guard encourages CLIA,'' this is 
the interesting point, ``to disclose the report information to 
potential cruise ship passengers so that they can make informed 
judgements about their comparative safety and security, and so 
that CLIA members can take appropriate measures to reduce the 
potential for unlawful activity aboard their vessels.''
    Now this is where I am going with this. You just said that 
you believe that the agreement is excellent. And then I look at 
this statement and it seems like you believe that we need to go 
a little further. Again, going back to trying to have a 
measured response, do you stand by the written statement here? 
And could you comment on that, please.
    Admiral Justice. I thought my verbal and written statements 
should parallel. But we have come to the conclusion----
    Mr. Cummings. In other words, did you work with the FBI, 
and I am going to have you comment too, Mr. Hernandez, did you 
work with the FBI and the industry on this agreement?
    Admiral Justice. Absolutely, sir.
    Mr. Cummings. I think that whenever there can be a 
voluntary agreement, the Congress applauds it as long as it 
resolves the issues. I guess what I am getting at is I am 
wondering if you feel that this resolves the issues, and if 
not, why have we stopped short of completely resolving it, if 
that is how you feel.
    Admiral Justice. Sir, given the legal situation that we are 
in, I do feel, and the FBI and the Coast Guard submitted this 
proposal to the CLIA, that their positive response, their quick 
response shows an absolute commitment on their part to work 
this process. I do feel that this will provide a positive 
significant step for all concerned here.
    Mr. Cummings. Mr. Hernandez, what will this agreement put 
us in a position to do that is not happening right now? We have 
a young lady, Ms. Matsui's constituent, who is going to be 
testifying in a few moments and, by the way, a lot of her 
written testimony, I am sure her testimony when she sits at the 
table as well, goes to how she was treated. I think anyone who 
imagined their wife or their daughter or sister being treated 
that way would scream and go crazy.
    And, interestingly enough, part of her testimony goes to 
the issue of treatment by the FBI. And I tried to look at it 
from both sides. A lot of it has to do with the bind that you 
seem to find yourselves into; in other words, you get to the 
situation late, I am not saying that is your fault, the 
jurisdictional problems happen so often, so by the time you get 
there the evidence is gone, you have got all kinds of problems. 
She is sitting right behind you listening to you. Does this 
help a situation like hers, somebody who has been assaulted and 
raped? I am just curious.
    Mr. Hernandez. Mr. Chairman, with respect to the first part 
of your question regarding the change in the voluntary 
reporting procedures, we have to go back to the fact that under 
33 C.F.R. cruise lines are only required to report violations 
within the 12 miles, regardless of nationality of the 
perpetrator or the victim, regardless of flag or ownership. 
Beyond that, they are only required to report under the law 
beyond those 12 miles if it is a U.S.-flagged vessel. As you 
mentioned in your statement, very few are U.S.-flagged vessels.
    So in our view, and I think the cruise lines agreed and the 
Coast Guard certainly did, there was a gap in terms of what was 
being required to be reported involving U.S. nationals beyond 
the 12 mile limit. So in September of last year, we got 
together for the first time with the Coast Guard and the cruise 
lines to talk about how we might remedy that. And I will echo 
what Admiral Justice has said, that the cruise lines brought 
that to us. They are very interested in coming up with a scheme 
to require, in terms of an agreement between us and them, 
require reporting to us. And that is what I think we have 
arrived at.
    So in answer to your first question, I think we have 
expanded well beyond what was originally required under the law 
to a whole new area of things that will be reported to the FBI 
and to the Coast Guard. You see those set out in the letter and 
in the form what those things will be.
    With respect to Ms. Dishman's case, I can only speak from 
what information I have been able to gather. And to answer some 
of Representative Matsui's concerns, in fact, when this 
occurred, and I think the date was February 21 of last year, 
the FBI did respond. The following day was able to bring an 
evidence response team on board to do evidence collection. 
About 20 people were interviewed. The subject was, in fact, 
polygraphed. The rape kit that was collected was taken and held 
as evidence. The matter was presented to the U.S. Attorney's 
office and it was declined for prosecution.
    That is not to suggest that Ms. Dishman was not the victim 
of a sexual assault. It means only that, in the view of the 
U.S. Attorney's office, insufficient evidence had been obtained 
to support an indictment and a conviction. That is a routine 
determination, not that any case is routine, but that is 
routinely the case, especially in the situation of a cruise 
ship where often the accuser and the accused may know each 
other in some way, typically not a stranger involvement. And so 
the circumstances change a little bit. The prosecutors and, 
frankly, the FBI have to view everything that we can obtain in 
the way of evidence to see whether it will support an 
indictment and a prosecution.
    And then finally, whether this new agreement in any way 
changes how that might have played out. I am not so certain. 
The purpose of the agreement is really to increase the level of 
reporting so that when U.S. nationals are involved we at least 
have an opportunity, the FBI, the Coast Guard, and other law 
enforcement agencies, if it is appropriate, have an opportunity 
to look into it to see whether in fact there is jurisdiction.
    As everyone has mentioned here, the jurisdiction issue is 
very tricky and it is a very tangled web. So the idea is, 
first, to get increased levels of reporting that we can track, 
and then ultimately put together some trend analyses based on 
those that might inform the industry and the public if it is 
deemed to be appropriate.
    Mr. Cummings. My last question, Mr. Hernandez. As a trial 
lawyer, I have noticed a lot of my clients did not get in 
trouble because of the offense, they got in trouble because of 
obstruction of justice. I am just wondering, a lot of Ms. 
Dishman's testimony, and others, by the way, sounds like they 
believe that there was some blocking of the FBI and others from 
getting to the bottom of the issue. Would you have the same 
kind of problems, the FBI, in trying to pull together an 
obstruction of justice case? The same problems would take 
place?
    Mr. Hernandez. I am not certain because I do not know the 
facts that well about what actually transpired there on the 
ship. But without rendering a legal opinion about obstruction 
of justice, if there is no actual intent to impede an 
investigation, it is a very difficult burden to meet. And I am 
not aware of an intent to impede a known investigation at that 
point last year. Were there an attempt to impede the 
investigation, I think it would be worthy of presentation to 
the U.S. Attorney's office. I am just not aware that was the 
case there.
    Mr. Cummings. You said something about Ms. Dishman's case. 
When you all gather the information and present it to the U.S. 
Attorney, is it typical for you to present it with a 
recommendation?
    Mr. Hernandez. Often, depending on what we have seen 
because we are closer to the actual events. But typically, the 
facts are presented and the U.S. Attorney's office or the 
Assistant U.S. Attorney makes a decision based on what he or 
she sees. Ultimately, they are the ones who will have to 
present that in court.
    Mr. Cummings. By the way, were any victims' groups a part 
of the discussions with regard to the agreement that came 
forth?
    Mr. Hernandez. No.
    Mr. Cummings. All right. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman. Mr. 
Hernandez and Admiral Justice, thank you very much for your 
testimony. I tried to outline in my opening statement, and Mr. 
Rayfield and I were talking as the Chairman was asking 
questions, it seems to me that part of this is the by-product 
of the fact that the cruise industry by its nature has changed. 
We had the rather romantic notions in the past of the Titanic 
coming over, that was not so romantic because it did not work 
out so well, but people going back and forth across the 
Atlantic.
    But in the last 15 or 20 years it has become, as Ms. Brown 
indicated, sort of a vacation venue. I think that because 
nobody on this dais is going to arrest anybody or prosecute 
anybody for crimes, our focus needs to be what laws can we 
amend or come up with that do a better job of dealing with the 
situations that are going to come before the Committee.
    I just want to walk through. Yesterday, under the able 
leadership of Chairman Cummings, we passed a bill dealing with 
pollution on ships. And because of the Annex 6 of the MARPOL 
Agreement, that gives us international reach. We also have 
treaties with our partners that deal with safety, that if an 
engine blows up or minimum requirements are concerned, 
jurisdiction of the United States extends to those situations 
as well. It seems to me where we have fallen short in this 
country is not on your end, it is on the fact that we have not 
negotiated agreements with other countries that say that United 
States citizens who travel on foreign flag ships should be just 
as safe from crime, rape, murder as they are from a 
malfunctioning boiler or from the pollution on the ships.
    So if I could, so that I have a better understanding as we 
attempt to do our job as legislators, maybe walk you through 
some of the existing statutes and you tell me if I am right or 
wrong and what suggestions either or both of you would make.
    Mr. Hernandez, you referenced 33 C.F.R. My interpretation, 
and basically that indicates that the United States has the 
ability on overnight voyages--there is a reporting requirement 
for felonies that occur in a place that is subject to the 
jurisdiction of the United States. I think I understood you in 
your testimony, Mr. Hernandez, but can a foreign flag vessel 
that is operating outside the territorial sea be a place that 
is subject to the jurisdiction of the United States of America?
    Mr. Hernandez. Yes, if the perpetrator or the victim is a 
U.S. national, or that cruise ship will at some point during 
its voyage make a port of call in a U.S. port, either at the 
beginning, the end, or sometime in between.
    Mr. LaTourette. And then the other section that we sort of 
reference is the Special Maritime and Territorial Jurisdiction 
that is contained in Section 7 of Title 18, that indicates that 
the United States may exercise jurisdiction over certain felony 
crimes that occur aboard a foreign flagged vessel. Section 7 
applies to jurisdiction to an offense committed by or against a 
national of the United States. And Section 8 asserts the 
jurisdiction, subject to international law, over an offense 
committed by or against a national on one coming in and out of 
the ports.
    Is your interpretation of where we are currently that U.S. 
citizens who travel aboard a foreign flagged cruise vessel that 
embarks or disembarks passengers at a U.S. port has the 
complete protection of the United States laws relative to 
felonies committed against them?
    Mr. Hernandez. Yes. That is true.
    Mr. LaTourette. Okay. And you also mentioned in your 
testimony the ownership question. If a ship is owned by a 
foreign corporation but there are some American citizens, U.S. 
nationals who own stock in that company, is there a threshold 
of ownership that triggers that ownership requirement even for 
a foreign flag vessel?
    Mr. Hernandez. I know that the language of the regulation 
reads ``wholly owned or in part,'' I just do not know what 
level ``in part''----
    Mr. LaTourette. That was my question. Is one guy owning 10 
shares part or does he have to achieve 50 percent of the 
corporation? Maybe if someone at the Bureau has looked at that 
and you could get back to us, I would appreciate that.
    Lastly, Mr. Hernandez, you talked about the letter that you 
received from the CLIA people yesterday accepting some things. 
In getting ready for this hearing, there was an Ohio family who 
lost a son and, at least in my reading of it, there was a 
pretty wide discrepancy between when the people in charge of 
the ship knew that someone was missing to when notification was 
made to the Coast Guard and/or the FBI.
    Did that letter that you referenced, this agreement on 
notification, put in place the time frame for, for example, 
when is the operator of a cruise ship required--not required, 
it is a voluntary agreement--but have they agreed on a time 
frame on when they are going to make that notification to 
either the Coast Guard or the Federal Bureau of Investigation?
    Mr. Hernandez. That was not contained in the letter. The 
letter was a response to the plan that was put forward 
essentially agreeing to abide by those policies.
    Mr. LaTourette. Okay. Just my editorial comment and then I 
will yield back. In the case that I am referencing, I think it 
was like an eight hour gap. I understand that people can go 
missing. And somebody made the comment that you might not be in 
your cabin, you may be in somebody else's cabin. So I 
understand that you have to search the ship and you have to 
search maybe the port of call where you are to make sure 
someone is really missing so we are not sending out false 
alarms.
    But it does seem to me that once the captain of the ship 
realizes that there is a report of a missing person, maybe one 
notification that can be made, and then after you have done 
your confirmatory stuff you figure out that, yes, this person 
really is missing and we need to get the Coast Guard involved. 
But to just wait eight hours, twelve hours to try and figure 
out that somebody is not there does not seem reasonable to me. 
Admiral?
    Admiral Justice. I agree with you, sir. I will say though 
our experience has been, and particularly in the last couple of 
months, there is no hesitation from the cruise ships to let us 
know if they found somebody missing. We have had two 
extraordinary cases just in the last month. With one 
individual, it was maybe seven hours before it was recognized 
that he was missing, but as soon as it was recognized, we were 
called and fortunately we were able to find him. In a case just 
this last week where two people were immediately known to be 
gone, we got the call right away and were able to get out there 
and effect a rescue. I think the response piece is there, sir.
    Mr. LaTourette. Okay. Has anybody broached that question? I 
heard what you said, that there is no reluctance on their part. 
But have either of your agencies sort of reached out to them 
and said, hey, while we are asking you to come up with 
voluntary agreements on how we handle these sorts of things, 
has the time question ever been broached in those discussions, 
like when they call you and say we think somebody is missing?
    Admiral Justice. No, sir.
    Mr. LaTourette. Mr. Hernandez?
    Mr. Hernandez. No, that has not come up in discussion. The 
cruise lines representatives I think are in a better position 
to comment about how that works when someone is actually 
reported as missing. But my basic understanding is that it does 
take a while often to establish that someone is missing and it 
is not possible in every instance to basically stop the ship, 
turn the ship around and begin to look. But I think they are in 
a better position to talk about that.
    Mr. LaTourette. I get that. I have never been on a cruise 
but I bet it is hard to stop a ship, it is hard to turn it 
around, I bet some people that people think are missing really 
do not turn out to be missing. But it does seem to me, having 
been in the crime business as a former prosecutor, that the 
quicker you have the report and seal things down, or at least 
secure the evidence, the better the chances of either solving 
the crime or prosecuting the crime, or figuring out that you 
have a problem. But thank you.
    Mr. Chairman, I yield back.
    Mr. Cummings. Just a follow-up on Mr. LaTourette's 
questions. Admiral, the two cases that you mentioned, were 
there witnesses to those people falling off the ship or 
whatever?
    Admiral Justice. In the first case, no. Thus, it took I 
will say seven hours, but some period of time before it was 
recognized that the individual was missing. However, when the 
circumstances did come to the captain's attention, an immediate 
call was made and a subsequent search fortunately found him 
treading water for many hours.
    In the second case just this weekend, yes, there was 
another couple that had been with the first couple that had 
left the area and then came back and it was apparent to them 
that the couple was missing. So they made the call right away. 
That happened just like that and the captain of the ship did 
turn that ship around right away, dropped his boats, and found 
the people.
    Mr. Cummings. We may have to revisit that agreement based 
upon what was brought out a moment ago by Mr. LaTourette.
    Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I got here late.
    Mr. Cummings. I am sorry. Ms. Brown.
    Ms. Brown. Thank you. I think my first question will go to 
the FBI representative. There has been a lot of discussion 
about statistics in communities and compared to what happens on 
the cruise ships. Can you give me some information in 
comparison, also is the FBI involved in other resort areas, 
national parks and other things like that?
    Mr. Hernandez. It is hard to get a good handle on the 
statistics because they are not reported per se to our national 
database which produces the annual report that talks about 
crime statistics in cities. So I cannot really compare the 
fifty or so cases that we open each year, those are cases that 
have been opened, determined to have some investigative 
threshold basis met. Beyond that, many cases are reported to us 
that are not opened. I am really not able to answer that 
question.
    Ms. Brown. Maybe you can answer this one. How does the FBI 
determine whether or not to pursue a case? When you are called 
in, what are some of the factors? I am sure it would be the 
same if we called you in to Jacksonville.
    Mr. Hernandez. That is right. Some of the investigative 
thresholds that we have are national thresholds. For example, 
in almost no case will the FBI investigate a theft under 
$10,000 for reasons of the priority of the case, the level of 
work involved versus the level of investigative resources 
available, takes into account the U.S. Attorney's office 
prosecutive thresholds, their interest in a case like that.
    So that is a good example of a threshold that is national 
that would apply to the cruise ships as well. The agreement 
that we have come to with the Coast Guard and with the cruise 
lines basically lays out those kinds of violations, those 
serious crimes for which we think there is a potential for 
prosecutive interest. That is a starting point.
    When we begin there, we have to then inquire about what we 
have been able to obtain in the way of evidence to support a 
presentation to the prosecutors. So there are several factors 
that come into play. If witnesses are unavailable or witnesses 
have poor recollection of events, if physical evidence is not 
available, if we have a situation where it might be one person 
says this, another person says this, we really have just one 
against the other, those are difficult cases to push forward. 
All those determinations are made early on and then that is 
presented in almost every case of a serious crime to the U.S. 
Attorney's office for a prosecutive opinion. So there are 
levels of inquiry at the investigative level and also at the 
prosecutive level.
    Ms. Brown. Okay. Mr. Justice, I have a question for you. I 
have been on several cruises. And let me just say, I think the 
Coast Guard does an excellent job. I want to thank you for your 
rescue efforts. But my question is, you recently recovered a 
couple of people, I do not understand how they get over into 
the water. I do not understand that.
    Admiral Justice. Ma'am, our understanding of the case this 
weekend is they were on the balcony of their stateroom and 
there was an accident and they went over the side. Fortunately, 
they did not get knocked out when they hit the water and they 
were able to tread water for the period time while both the 
cruise ship rescue boats searched and then our Coast Guard 
helicopter was able to locate them and pick them up. The water 
was warm and they were very fortunate.
    Ms. Brown. Yes, they were. Is it that there is something 
wrong with the design of the ship? I just do not understand how 
you get over the side.
    Admiral Justice. Ma'am, that is a great question. There are 
absolute standards set by IMO, International Maritime 
Organization, for the height of rails, there is a standard for 
how many rungs are in the rails. It is an accepted structure 
that ships comply with, and we make sure they comply with that. 
Beyond that, if they need to be higher, maybe that could be 
changed. I really cannot comment beyond that.
    Ms. Brown. I yield back the balance of my time.
    Mr. Cummings. Thank you very much. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. It is good to have you 
all with us this morning. Gentlemen, of all the cruise ships 
operating, how many are U.S. flagged? I am sure not many.
    Admiral Justice. Not many, yes, sir. We think there are no 
more than three that we know of.
    Mr. Coble. Of the total, which would be what, a couple 
hundred?
    Admiral Justice. That is right.
    Mr. Coble. Does the U.S. have the authority to require 
foreign flagged cruise ships to carry Federal marshals aboard?
    Admiral Justice. No, sir.
    Mr. Coble. I would think not either. Let me revisit what 
Mr. LaTourette said. I am not sure I grasped the answer. How 
does the U.S. jurisdiction over passenger safety and security 
measures onboard the vessel compare to jurisdiction over 
violations of Federal environmental laws onboard the vessel? I 
may have missed that response, but if you would say something 
to me about that.
    Admiral Justice. If you could ask the question again, sir. 
I am sorry.
    Mr. Coble. Mr. LaTourette touched on it, but how does U.S. 
jurisdiction over passenger safety and security measures 
onboard the vessel compare to jurisdiction over violations of 
Federal environmental laws onboard the vessel, pollution, for 
example.
    Admiral Justice. I think they parallel. It has to do with 
what happens if you call in a U.S. port or it happens within 
our territorial seas, then there is jurisdiction.
    Mr. Coble. So one does not enjoy superiority over another, 
you do not think?
    Admiral Justice. To the best of my knowledge, sir.
    Mr. Coble. Mr. Hernandez, any comment? Then let me ask one 
more question. Is there a penalty for a failure to report an 
applicable crime that occurs aboard a cruise vessel?
    Admiral Justice. Sorry, sir, could you repeat that.
    Mr. Coble. Is there a penalty for a failure to report an 
applicable crime that occurs aboard a cruise vessel?
    Admiral Justice. Yes, sir.
    Mr. Coble. What is the penalty?
    Admiral Justice. Fine or imprisonment, sir. I do not know 
the details.
    Mr. Coble. Then let me ask you this. To whom would that 
report be forwarded? I assume Coast Guard or FBI.
    Admiral Justice. Yes, sir.
    Mr. Coble. Coast Guard or FBI?
    Admiral Justice. Yes, sir.
    Mr. Coble. What are the international security and safety 
standards with which a cruise vessel must comply while on the 
high seas or on an international cruise? That is a general 
question and it may be too general.
    Admiral Justice. There are many of them, sir.
    Mr. Coble. I would like to know that. If you could get back 
to us on that, Admiral.
    Admiral Justice. Yes, sir.
    Mr. Coble. Again gentlemen, good to have you with us. Mr. 
Chairman, I yield back.
    Mr. Cummings. Thank you very much, Mr. Coble. Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. I think the questions 
have all been very good. From your testimony, both of you, you 
have indicated that there is this agreement regarding the 
reporting of crimes. I found it very interesting that you did 
not also meet with or have the victims' groups be a part of 
this when you were developing this.
    I compliment you on what is going on now. There seems to be 
some movement as far as realizing the situation is serious 
enough to start looking at it and looking at the number of 
maybe unreported crimes. It seems to me you are trying to do 
everything you possibly can with your own jurisdictions in 
order to get to some sort of reasonable sense--you have got the 
reports coming, you are kind of in an area where it is 
difficult because you are on the high seas for the most part, 
these ships are not American flag ships. But some of this, 
particularly, Mr. Hernandez, you were saying a lot of these 
things cannot be investigated or prosecuted for lack of 
evidence, maybe the time delay and all.
    So it seems to me we have to step back further again in the 
sense that should there not be a protocol developed on the ship 
itself as to how to secure the evidence, what steps must be 
taken so that you are confident that you have got the evidence 
and the victim herself does not have to do everything, gather 
up the evidence, put it together and all of that. Could there 
be a situation where both of you work with the cruise industry 
to develop some sort of protocol? Have you considered that at 
all?
    Mr. Hernandez. Yes. In fact, we have worked with the cruise 
lines for at least the past three years to put on training, FBI 
agent training for cruise line security personnel. We have 
worked with three of the lines and are just about to begin a 
training session with a fourth line to talk about things like 
that, evidence retention, preservation of crime scenes.
    We are in fact also putting together a Power Point 
presentation which we hope to export to the various cruise 
lines so that they can view it on their own time. There has 
been no reluctance on the part of the cruise lines to engage in 
that kind of training. In fact, they have solicited it from us. 
We have been able to give them as much as we can but they 
would, frankly, like more to cover exactly the kind of 
situation you are describing Congressman.
    Ms. Matsui. You say you have been working with them for 
three years?
    Mr. Hernandez. Yes.
    Ms. Matsui. I know that my constituent had this happen to 
her last year.
    Mr. Hernandez. Right.
    Ms. Matsui. Apparently, they did not have the training 
because, what I can understand from my constituent, there was 
nobody there who understood what was going on. It was quite 
difficult for her. Is there a way that we could factor that in 
perhaps, as far as when situations like this arise where the 
right things were not done, that we can go back? Because, 
frankly, I think the problem is at the very beginning. If you 
have an assault, you do not know what to do, you do not know 
who to call, and it was the way that Ms. Dishman was handled, 
it was very difficult.
    It was difficult for her even to come forward. But she did.
    So is there a way that you can get engaged even further 
with the victims so you understand what happens in their 
situation? If the cruise lines are really adamant about making 
sure that people are safe, I think they should go beyond just 
reporting. It is the whole series of steps that in essence led 
Laurie to being here today.
    Mr. Hernandez. There are certainly opportunities to train 
more. And with respect to evidence collection, preservation of 
crime scenes, it is not always a security person from the 
cruise line that shows up first. So you may have a cabin 
attendant that walks in and does not understand what he or she 
sees, cleans the room.
    We can do more. Our resources are such that it is difficult 
to train person-on-person the kinds of numbers we are talking 
about. With 200 cruise lines and the numbers of employees 
involved, it is difficult to do more than we have done. That is 
why we are moving toward something that we can send out that 
the cruise lines can use to make sure that their employees see 
it--basic crime scene preservation, not so much evidence 
collection, we would hope that would be held until law 
enforcement personnel can get there. But it is a huge industry 
and it is something that we are working on, but it certainly 
needs more attention.
    Ms. Matsui. Thank you.
    Mr. Cummings. Thank you, Ms. Matsui. Let me just ask you 
this, Mr. Hernandez, on the training. I am just going to ask 
about the training. Do you know about how many cruise industry 
folks you all train in a given training period?
    Mr. Hernandez. I do not have those numbers, sir.
    Mr. Cummings. Could you get that for us, please?
    Mr. Hernandez. Sure.
    Mr. Cummings. Could you also get us, and maybe you may be 
able to answer this for us, generally what is entailed in that 
training? And I would also be curious as to whether it is your 
opinion that that should be a requirement for people who are 
going to be dealing with--are these basically sort of law 
enforcement people from the ship who get the training?
    Mr. Hernandez. As I understand it, generally cruise ship 
security personnel would get the training. As far as my opinion 
about whether it should be required, obviously, more training 
would be better than less training. I think the cruise lines 
representatives that are here can answer to that in terms of 
what that would actually involve, how we would set that up. 
Probably the FBI could not provide all that training but there 
may be other resources that would be available to provide some 
of that.
    With respect to your question about what the training 
entails, as I said before, basically, preservation of evidence 
and I am guessing some information about protection of 
witnesses, keeping witnesses aside, that kind of thing.
    Mr. Cummings. The reason why I asked you that is because 
when reading Ms. Dishman's testimony, there is one statement 
that--well, there is a lot that is of concern to any law 
enforcement person--but she said that after the sexual assault 
she was told to go back and gather her clothing and what have 
you, I guess the sheets, and she said she folded them up very 
carefully and brought them back to the law enforcement people 
on the ship, the security folks, and then they treated the 
stuff as if it did not matter. So there was not the 
preservation of evidence.
    But she said something else that concerned me, and that was 
that the person who she said raped her was I think a custodian 
who was sort of doubling as a security officer that night. I 
think part of her alarm was that one of the very people she 
thought was supposed to be protecting her ended up being the 
one who hurt her. I think that is one of law enforcement's 
greatest nightmares, and I do not care what level you are on, 
state, local, ship, whatever, that those who are intended to 
protect end up harming.
    That is why I was curious about the training and how that 
might be a part. I think we have a possibility of a win-win 
here. But I think the industry has got to do its part. It has 
got to be a two-sided street. I think still people want to know 
that when they get on ships, this goes back again to what the 
Judge said, Congressman Poe, one victim is one too many.
    I want to thank you all for your testimony.
    Mr. Coble. Mr. Chairman.
    Mr. Cummings. Yes, Mr. Coble?
    Mr. Coble. Can I ask one more question?
    Mr. Cummings. Certainly.
    Mr. Coble. I will be very brief. I asked you about foreign 
flagged ships. I assume that the U.S. does have the authority 
to require Federal marshals to be aboard a U.S. flagged ship; 
is that correct?
    Admiral Justice. Yes, sir.
    Mr. Coble. Admiral, what authority would these officials 
have beyond U.S. waters?
    Admiral Justice. Authority wherever the ship goes until it 
got to a foreign nation's territorial seas.
    Mr. Coble. Say again, I did not get that.
    Admiral Justice. They would have authority through 
international waters until that ship got to a foreign nation's 
territorial seas.
    Mr. Coble. Okay. How often is this done? How often do 
Federal marshals accompany U.S. flagged cruises?
    Admiral Justice. I do not have an answer to that, sir.
    Mr. Coble. Can you get that for us?
    Admiral Justice. Yes, sir.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Coble. I thank you. Thank you, Mr. Chairman.
    Mr. Cummings. Congressman Poe?
    Mr. Poe. Thank you, Mr. Chairman, no questions.
    Mr. Cummings. Just one other thing. You all have been 
working with the industry to craft this agreement. Is your 
responsibility now over? In other words, is this something that 
is ongoing? I am just curious. I know that you have reached a 
critical point because you have got now a document. But I am 
wondering where you see this as going from here?
    Mr. Hernandez. Actually, many of the cruise lines have been 
voluntarily reporting much of this information for a while. And 
so we now will begin to populate our database with what is 
coming in so that we can track it in the future. We will 
monitor this for an indefinite period to work out any bugs in 
terms of how this works with respect to reporting. We have 
guidance and policy to go out to our field offices and our 
legal attache offices on how to handle these reports when they 
come in. So there is more work to be done.
    It is a first step but I think a critical and an important 
first step to get everybody on the same page. The cruise lines, 
as I mentioned before, were as much behind doing this as we 
were. They wanted to find a way to standardize the reporting to 
make sure that everybody within the industry understands how 
the reporting should be done, what kinds of things should be 
reported. So I view it as a very positive first step that we 
will continue to work on.
    Mr. Cummings. And Admiral?
    Admiral Justice. Sir, last December I sat here in front of 
you and told you I had no statistics, no answer. This year I am 
here saying that we have got a plan. Maybe next year I will be 
here and give you the results of that plan.
    Mr. Cummings. I promise, if there is breath in my body, and 
in yours, by the way----
    [Laughter.]
    Mr. Cummings. You will be back so that we can see. One of 
the things that I do believe is that in order for Congress to 
effectively and efficiently do its job, we have to constantly 
have oversight and accountability. I learned that from one of 
my mentors, Ms. Brown. You have got to have accountability. And 
so what we will do is we will schedule to bring folks back to 
see exactly how the agreement is working. What do you think is 
a good time line, because you all know the kind of stats here, 
and I am going to ask the cruise industry the same thing, but I 
am just curious whether it is six months, a year?
    Admiral Justice. I think six months would be fair.
    Mr. Cummings. We will see you in about six months then. 
Thank you very much.
    Ms. Brown. Mr. Chairman.
    Mr. Cummings. Ms. Brown?
    Ms. Brown. Before we move on, I want something to be 
cleared up. I think it would be important for the members to 
get the information on why our ships are foreign-flagged. That 
is economics and it has something to do with how the ships are 
built and where they are built, the taxes, and all of that. So 
perhaps you can direct the staff to give us that information.
    Mr. Cummings. We will definitely do that. And staff also 
said that maybe we might want to have a hearing on that. But we 
will get you the information, Ms. Brown. Because you are 
absolutely right.
    Ms. Brown. Absolutely. And as far as the information that 
was requested, I am sure that information is not going to be 
readily available because part of it is Homeland security and, 
as you know, we work carefully with them on security as far as 
the entire industry, not just the cruise ships but the whole 
homeland security, whether it is cruises, or trains, or 
airplanes.
    Mr. Cummings. On the issue of the cruise ship, are you 
talking about when I said six months?
    Ms. Brown. No, no, no. I am going back to the other 
matters, the concerns about the flag ships and then the 
question that he asked about security.
    Mr. Cummings. I promise you we will be on top of that.
    Again with regard to the cruise ship situation, I want to 
thank you all very much for your work. I think what you have 
done with the industry shows what can be done by those of you 
who are involved in trying to address an issue that because of 
the laws and the treaties and whatever make things difficult. I 
think so often what we do not do is do what you all have done, 
and that is to sit down and try to work something out.
    Is it perfect? I do not know. Will it be effective? I do 
not know. Will it need more fine tuning? I do not know. But we 
will take a look at it in six months and see. We look forward 
to seeing you then. Thank you very much.
    Our next panel please come forward now. Ken Carver, 
president of International Cruise Victims Organization; Ms. 
Laurie Dishman; Mr. John Hickey; Dr. Ross Klein.
    I want to thank all of you for being here. We have one more 
panel, so we are going to have to hold you to five minutes, 
unfortunately. We will first hear from you, Mr. Carver. And 
again, we thank you all for being here.

TESTIMONY OF KEN CARVER, PRESIDENT, INTERNATIONAL CRUISE VICTIM 
   ORGANIZATION; LAURIE DISHMAN; JOHN HICKEY; ROSS A. KLEIN, 
         PROFESSOR, MEMORIAL UNIVERSITY OF NEWFOUNDLAND

    Mr. Carver. It is a pleasure to be here. We appreciate this 
hearing. I am here really representing myself as a victim and 
as president of a group of victims called International Cruise 
Victims. I think my daughter's story has been well told. Chris 
Shays told it this morning with more passion than I can tell 
it. She went missing. We had to trace her to a cruise ship. The 
cruise ship after a few days got back to us and said she was on 
the ship but could have gotten off.
    In effect, for us to figure out what happened on that 
cruise ship, we had to hire an international detective agency, 
Kroll and Associates. We ended up going to two law firms, one 
in Massachusetts and then we had to go to a law firm in 
Florida, to issue injunctions against the cruise ship because 
we made one decision--we wanted to talk to the steward on that 
ship. The FBI failed to interview anybody on Merrian's ship. 
They were not notified until five weeks after she disappeared 
and then interviewed no one.
    Because of all the questions, we felt we had to take 
action. So we found out in January of 2005, this is four and a 
half months after she disappeared, that in fact our daughter 
had been reported missing daily for five days by the steward on 
her cruise ship and the supervisor said to the steward, just do 
your job. Five days. At the end of the cruise, the steward 
asked what do we do with the belongings? He said, put them in a 
bag and put them in my locker. And then we have court documents 
in which the cruise ship and the management of Royal Caribbean 
Cruise Line disposed of her items, except a bag which had her 
name in it and that was put in storage. Until we came to them, 
they had taken no action and would never have taken action on 
our daughter.
    When we told this story a year ago, Christopher Shays, who 
was here this morning, asked Larry Kaye, who is behind me, how 
do you react to Mr. Carver's testimony? And Larry Kaye said I 
think what happened to Mr. Carver was absolutely horrible and 
unexcusable. Now the cruise line's defense was it was that 
supervisor; if it were not for him, we would have had no 
problems.
    So Chris Shays asked Larry Kaye, do you think the 
supervisor was the one responsible? Larry Kaye came back and 
said, I think he is one of the individuals responsible. 
Because, clearly, the documents which were included in your 
material show a whole group of people in the third week of 
September setting up the cover-up of my daughter's 
disappearance. When Chris Shays asked Captain Wright from Royal 
Caribbean last March what did he think, why did you treat the 
family this way, his response was, it was my understanding that 
we did our best once we were aware of the disappearance of Ms. 
Carver. That was the third week in September. It was not until 
March of 2005, after I had gone to the Board of Directors, did 
we get anything from the cruise line, and that has clearly been 
documented.
    At that point Carol and I thought we were the only two 
people in the world that had had this happen. And then a book 
came out in July of 2005 called The Devil in the Deep Blue Sea, 
and it made this statement: ``An examination of sexual cases 
found a pattern of cover-ups that often began as soon as the 
crime was reported at sea, in international waters where the 
only police are the ship's security officers.'' I realized that 
is exactly what happened to us.
    So in December of 2005 we had another hearing, and I think 
you participated in that. After that hearing, that hearing 
discussed my daughter's case, the George Smith case, I came 
away with the conclusion that there is a major problem with the 
cruise lines. So I said to my wife maybe we ought to have a 
group of victims. She said, well, that might make sense. So I 
contacted other families that I knew--the Smith family, the 
Michael Pham family, Jean Scavones, who lost a son--and we 
started a little group in January of 2006, just 15 months ago, 
called International Cruise Victims. You can go to our web site 
and you can see that group. That group started from zero 15 
months ago and it is now gone around the world. We have members 
in 10 different countries, a separate chapter in Australia.
    Now what conclusions have I reached during the past year? 
The last thing I ever thought I would do is represent a group 
of victims. But here are the conclusions I have reached.
    One, we agree with page 246 of The Devil in the Deep Blue 
Sea where it says ``Avoiding negative publicity, it seemed, was 
a higher priority than seeing justice done.'' That was a 
statement from the book and I have to agree with that 100 
percent.
    Two, cruise lines take the position they do not investigate 
crimes. I am glad to see the cruise lines have brought all of 
their security officers, because in my daughter's case they 
clearly said we are under no obligation to investigate, and we 
have that in written form from other crew members. The only 
thing they say they do, and on a voluntary basis--and I think 
it is amazing that they just signed an agreement yesterday with 
the Coast Guard and FBI, without consulting anybody else, to 
short-stop legislation, to voluntarily give them information.
    Three, if the cruise line officials make efforts to cover 
up crimes, contrary to what was said this morning by the 
previous witness, there appears to be no penalty against the 
cruise line. Merrian's case is extremely well documented. They 
took every step they could to cover up her disappearance. What 
they did not suspect is that we would spend $75,000 to force 
that steward to testify. And there is no penalty. They violated 
absolutely every protocol that they had, and they are listed 
earlier in my testimony.
    Lastly, in the cruise line industry, and I hesitate to say 
this but I have to say it because I believe it, there is a 
pattern of cover up. Let me give you some examples.
    Mr. Cummings. Mr. Carver, I am going to have to ask you to 
wrap up.
    Mr. Carver. Okay. Well, in our testimony, we have proposed, 
if you go to our web site, extensive documentation of changes 
to make to the cruise line industry. A year ago we presented a 
10 point program. Let me just make one quote from Peter 
Ratcliffe, who is CEO of P&O/Princess Division. He said in 
February at a press conference in Australia, ``We are also 
focusing our attention on the proposals from the ICV advocacy 
organization headed in Australia by Mr. Brimble.'' That is the 
separate chapter. ``We recognize that these proposals reflect 
the legitimate interests of the people involved in the safety 
and security of passengers on board our vessels.'' And here we 
have the president of one of the cruise lines saying, hey, 
these documents need to be given serious consideration. I do 
not think any voluntary assignment will ever do anything. I 
think we have proposed positive programs to make changes.
    I really thank you for the time we have had to present 
this.
    Mr. Cummings. I thank you.
    Ms. Dishman, we want to thank you for being here today. I 
have read your testimony. I know that it is not necessarily 
easy to do this, but we do appreciate you being here. Please.
    Ms. Dishman. Good morning, my name is Laurie Dishman. Thank 
you, Chairman, the Committee, and my Congresswoman, Doris 
Matsui. I am pleased to be here today. I prepared and filed a 
statement for the record detailing my experience during the 
last year. Today I would like to share with each of you how 
that crime affected me and share my proposed solutions so that 
no one else has to go through a similar experience.
    A year ago my best friend and I went on a cruise to 
celebrate 30 years of friendship. We wanted to relax and have 
an umbrella drink in our hand. But those innocent feelings of 
excitement and relaxation and celebration are no longer a part 
of my life. On February 21 of last year, a Royal Caribbean 
security guard raped me. Over and over, I tried to resist, with 
him forcing me down and keeping me from moving until I became 
unconscious. When I awoke the next morning my neck hurt and was 
sore. As I got up and looked in the mirror, I had bruises on my 
throat. I was horrified and shocked, crying and falling to the 
floor. The terror of that experience still overwhelms me. The 
sounds, the images, the feelings of helplessness, the shame are 
all demons that pound in my head and tear at my heart.
    I continued to have only men around me after the rape and 
it was traumatizing over and over to not have anyone other than 
Michelle who could help me. Instead, I was asked to fill out 
statements, after telling them what had happened. And then the 
purser stands up and says, ``It sounds as if you need to 
control your drinking.'' I just wanted to see the doctor and 
get off the ship, but they said I had to fill out statements 
and then I could see the doctor. Imagine having to stay in a 
place where you had been raped and writing what had happened. I 
did not feel safe and these people continued to make me feel 
pressure in getting things in writing.
    I felt raped again when the doctor gave Michelle and me two 
garbage bags and told us to go back to the cabin and collect 
the evidence. We carried the garbage bags through the hallways 
back to the infirmary under supervision of the male head 
security officer. I have never heard of something like this 
where the victim continues to be revictimized over and over 
with no where to go, stuck in the middle of the ocean. I was 
able to see the doctor after I collected the evidence and wrote 
my statement, sitting there in the room with a male nurse and 
finally a female nurse, the only female after I had been raped, 
to perform parts of the rape kit, and then it was all men 
again. I had never felt safe, especially in the hallways, 
because the infirmary was by the crew area and being that close 
was horrible.
    I continued to tell the staff captain that I just wanted to 
go home, and the feeling was like nobody was helping me. They 
even suggested that we get off the ship and go to Mexico. And 
then Michelle protected me and we had to ask to change cabins, 
and so they finally did. Nothing was immediate, like they 
claim. Everything was slow motion and they were trying to 
figure out how to protect themselves. We got off the ship and 
the cruise line flew us back to L.A. where the FBI picked us up 
and told us they were taking this very seriously. They took our 
statements and photographed my neck injury, and then said they 
would board the ship when it docked in San Pedro.
    Michelle and I returned home. Thank God for my mom and dad 
and my sisters and brother. I felt safe again. Immediately I 
went to my doctor to get tested for HIV and STDs and x-rays on 
my neck. I also began therapy treatment called EMDR. Julie, my 
FBI agent, later called me and told me the Assistant U.S. 
Attorney was declining my case. I asked why, and she told me 
there was not enough evidence, it was a he said-she said case. 
They would not give me any information about the man who raped 
me and said it was confidential.
    I felt the FBI revictimized me. I now wanted to talk 
directly to the U.S. Attorney to explain to me why the 
evidence, my interview, the photographs of my neck, the tampon 
that this man impacted into me, was not enough. Was it because 
the security officer and the purser sat on the bed where the 
crime occurred, or maybe because the doctor and security 
required Michelle and I to collect the evidence, or could it 
just be because they did not criminally prosecute these cases.
    I was then told that they had not even tested my blood. Did 
they not believe me? Later I learned that the security guard 
was really a janitor with a record, including lying, falsifying 
of records, insubordination, and anger problems. He was 
drinking alcohol in the lounge the night in question. I later 
learned he was served by his fellow crew members, the 
bartenders, and the cruise line gave him a security badge and 
they believed him.
    I was told by the Department of Justice they actually 
declined my case on February 26, the same day the FBI boarded 
the ship. I asked the chief prosecutor how long does it usually 
take when the FBI collects the evidence and for the Assistant 
U.S. Attorney to decide. He said, well, it could take a month 
or four years, depending on the case.
    So I asked him, how could you decline my case the same day 
the FBI boarded the ship and even before they tested my blood? 
Why was he not kept in jail? What was the rush? I felt 
revictimized by the Department of Justice. And one thing I want 
to add to my statement today is that today was the first time 
the FBI has ever mentioned a polygraph test that was taken on 
the 26th.
    So I am here today asking for you to look at this, as 
important not only for myself but before there is another woman 
who is raped by a security guard who is really a janitor, where 
the FBI gives us less than a day, where the Department of 
Justice closes another file, and everyone tramples on justice. 
In February 2000, there was another passenger who sailed from 
L.A., Janet Kelly, who was victimized by a cruise line and 
ignored by the same FBI and Department of Justice. The rapist 
went free and he ended up on another cruise line. I read her 
story in a Time Magazine article.
    She appeared at the last hearing in March 2006 to tell her 
story and she recommended changes, including Federal marshals 
and many other good ideas. I know now nothing changed from 2000 
when she was raped, or from hearings last year when she 
testified to the time of my cruise. I became the next Janet 
Kelly. There have been others between us, too. Will the 
Committee help us? Can you work together and prevent someone 
from being the next Laurie Dishman?
    For the past year, I have thought each day what could be 
done differently to stop this from happening again. I took the 
last week off to prepare my recommendations for changes. I do 
not have time to discuss them all but I hope you read them. 
This cruise industry cannot be trusted. Please read my 
suggestions. They are attached to my statement.
    In closing, thank you to the Committee for allowing me the 
honor of appearing here today, and a special thank you to Doris 
Matsui and her staff, who listened to me and have made this 
important hearing happen. Thank you.
    Mr. Cummings. You thanked us, but we thank you, we really 
do. We hear you.
    Dr. Klein.
    Mr. Klein. I am pleased to have the opportunity to assist 
the Subcommittee in its deliberations about crime against 
Americans on cruise ships. My comments focus largely on the 
issue of sexual assault. These comments are framed, in part, by 
the cruise industry claims that a person is safer on a cruise 
ship than on land, and that the crime rate on cruise ships is 
lower than that in the U.S. generally. My basic point, it is an 
incontrovertible fact that sexual assault and sex-related 
incidents are a problem for the cruise industry and the first 
step in dealing with the problem is to admit that it exists and 
to understand its landscape and complexity.
    Last March the Committee heard testimony from Dr. James Fox 
asserting that compared against their home communities, 
passengers have an appreciably lower risk of sexual assault 
while enjoying a vacation cruise. Based on the numbers given to 
Dr. Fox by the cruise industry, and the method he used to 
extrapolate from industry-wide passenger load figures, his 
claim that cruise ships are safer is a fair conclusion. 
However, as with any mathematical computation, if the numbers 
going into the equation are unreliable, then the result is also 
unreliable.
    Using Dr. Fox's method but focusing on one cruise line and 
the data they provided in discovery hearings, I conclude that 
one has a 50 percent greater chance of sexual assault on a 
Royal Caribbean International ship as compared to the U.S. 
generally. I also assert that the pattern of Royal Caribbean is 
consistent with that of other mass market cruise lines 
operating similar ships of similar style. In contrast to Dr. 
Fox's assertion that the rate of sexual assault on cruise ships 
is 17.6 per 100,000, I find a rate that is almost three times 
greater--48.065 per 100,000. And if we include sexual battery 
into these figures, the number is almost 65 per 100,000, 
roughly twice the rate for sexual assault in the U.S., which is 
32.2 per 100,000.
    It is useful to consider factors that likely influence the 
reporting of incidents of sexual assault. After all, the 
numbers we are dealing with only include reports of assault, 
and these, like on land, reflect only a portion of actual 
cases. While some disincentives to reporting assault are common 
to cruise ships and land, the cruise ship is a unique 
environment and produces its own issues.
    One factor in under-reporting, as we have just heard most 
eloquently, is the fear of secondary victimization. This takes 
on a different flavor aboard a cruise ship where a victim who 
is a crew member is left having to work with their victimizer 
and continue to be in that environment even after the attack. 
In effect, the person who has been victimized is first 
victimized by their harassment or assault, is then revictimized 
by the employer often refusing to deal with the problem, and 
then revictimized again because the victimizer knows by now 
that he or she can get away with the behavior pattern.
    In the case of passengers, the secondary victimization may 
be a bit different. Often the cruise line's first response to 
an assault or sex-related incident is damage control. Their 
role is to contain the damage to the cruise line rather than 
deal with the victim's complain. I have heard often from 
victims that dealing with the cruise line personnel is at times 
worse than the actual assault. If the complaint goes forward 
after the cruise is over, then the victim is likely to be 
further victimized by a tendency for cruise lines to blame the 
victim for their own victimization.
    Once a crime is reported, there are obviously problems with 
preserving evidence, and I think we have heard that fairly 
well. As well, victims will often delay making a report of an 
assault because of fear of reprisal while they are on the ship 
and will wait until they get home. Once they get home they may 
not report it because they want to let go of what had happened.
    There are features of shipboard culture that are also 
relevant to consider. First, is that passengers come onboard a 
ship believing the cruise industry's mantra that cruise ships 
are safe. Of course, as a result, they go about enjoying 
themselves, they let down their guard, even let their children 
run around without supervision, assuming that they can trust 
what the cruise lines have said. Unfortunately, that may not be 
the fact.
    Shipboard culture also includes alcohol consumption. There 
are many cases of assault where the victim was plied with 
alcohol before an attack, including under-aged passengers, or 
where the victim became inebriated on their own and with 
reduced defenses were assaulted. This is not an indictment 
against alcohol or bars, but simply reflects a risk that is 
inherent in the ship's culture. Passengers on vacation, out to 
have a good time, have furthest from their mind the need to 
protect themselves from unwanted overtures from crew or 
officers. And the cruise line, again, encourages them that 
there is nothing to be concerned about.
    About eight years ago the cruise industry, in response to 
court cases dealing with sexual assaults, came out with what 
they called their zero tolerance policy to crime. This was 
signed on by four corporations comprising more than 80 percent 
of the ships visiting U.S. ports. That zero tolerance policy 
was a commitment to report all crimes occurring on cruise ships 
against U.S. citizens. We would not be here today I would not 
think if, in fact, that zero tolerance policy was being 
followed after the PR campaign of putting it forward.
    One of the emerging issues, and I just want to mention it 
very briefly, is the disappearance of passengers as well as 
crew members from cruise ships. Unfortunately, the best data 
set of these events, and it is included in my submission, is 
one I have put together from media reports and reports from 
people on board ships. I would hope in a short time that we 
would have a more comprehensive and accurate accounting of 
these events as well as of sexual assaults. Without accurate 
information we cannot adequately address the full breadth and 
scope of the problem.
    Thank you for this opportunity to address the Committee. I 
hope I have helped provide some insight.
    Mr. Cummings. I recognize Mr. LaTourette for a unanimous 
consent request.
    Mr. LaTourette. I thank you very much, Mr. Chairman. I will 
not be able to stay for your testimony, Mr. Hickey. I want to 
thank all of you for your testimony. I have been notified that 
another committee requires my votes for the next hour. So, Mr. 
Chairman, I would ask unanimous consent that Mr. Boustany, who 
is a member of the full Committee but not a member of this 
Subcommittee, be permitted to participate and take my place for 
the next 60 minutes or so.
    Mr. Cummings. Without objection, so ordered.
    Mr. LaTourette. Thank you, Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Hickey.
    Mr. Hickey. Thank you, sir. Thank you, Congressman Cummings 
for inviting me to speak today before the Subcommittee. I am 
truly honored.
    For 27 years I have practiced law in the cruise line 
capital of the world, Miami, Florida. I am a trial lawyer. For 
the first 17 years of my career I represented cruise lines, 
railroads, insurance companies, and major corporations. For the 
last 10 years I have fought the cruise lines and have 
represented passengers and crew members against cruise lines 
and against large corporations.
    The passengers I represent are people from all across the 
United States. They are all of your constituents, constitutes 
of you, Mr. Cummings, of you, Ms. Brown and Mr. Mica, my fellow 
Floridians, and they are one of the 10 million United States 
citizens who take cruises every year.
    The cruise lines market to Americans, they depend on 
Americans. And although I have heard it said that, yes, 
Florida's economic engine is in large part contributed to by 
the cruise lines, certainly it is those ten million Americans 
every year who contribute billions of dollars to the coffers of 
the cruise lines, representatives of whom are sitting behind me 
at this time.
    I stand by the statement made on page 2 of my paper, which 
is--and I am going to get more into this, in the three and a 
half minutes I am going to explore my 27 years of experience 
with you. But the passenger or crew member seeking justice 
against the cruise line is met with more obstacles than in any 
other area of the law. I can explain that and I can also answer 
some of the questions I have heard raised earlier. Congressman 
Coble raised some questions that I can perhaps shed some light 
on in regard to regulations and penalties.
    In my paper, I share a hypothetical. In the hypothetical I 
went through various scenarios of passengers, typical 
passengers, your constituents, the American people who are on 
cruise ships every day and what they go through. I take these 
calls and my staff take these calls every working day and 
sometimes on weekends from folks all across the country. I am 
not going to, and I do not have time to go through the 
hypotheticals. There are basically six involved.
    One is Lisa Smith, and these are all fictitious names, of 
course, involved in a rape. One of the problems involved in 
these sexual assault cases is getting the statistics. Let me 
tell you, and what Dr. Klein has addressed, statistically, what 
we get from the cruise lines is a different answer every time 
we ask the question. In sworn interrogatories in a case I have 
pending in Miami, Florida, the Royal Caribbean Cruise Line just 
swore that in a three year period the number of sexual assaults 
was 17. Yet, not a year ago, before the United States Congress, 
Congressman Shays' Subcommittee, that very same cruise line 
submitted statistics that indicated there were approximately 
66, in a slightly different time frame but the same number of 
years, and there were overlapping years. I submit to you that 
the rate of sexual assaults has not changed that much.
    What we are not getting from the cruise lines in fact is 
their database. They keep a database on these sexual assaults 
and we are not getting that and you are not getting that. What 
you are getting and what I am getting in law suits every day in 
Miami, Florida, when I fight down there in the trenches, is a 
lawyer-generated document with a self-chosen definition for 
sexual assault and sexual battery. I get different numbers 
every time I ask the question.
    The other scenario I put forth is Maria Casa, who went 
overboard. This is loosely written about a woman from Wisconsin 
who went overboard in 2004 off the coast of Mexico. Annette 
Meisner I believe is her name. She went overboard and 
subsequently died it is believed; she has been declared dead. 
The security camera trained supposedly on the landing where she 
had the fight with the officer, who it is suspected may have 
pushed her off, was not functioning that night.
    There is another scenario in there about the mother of this 
woman, Beatrice Casa, who suffers a heart attack and goes to 
the ship's infirmary and is misdiagnosed as indigestion and 
subsequently suffers a massive heart attach. We get calls on a 
weekly basis about the medical care on cruise ships. It is 
substandard and the cruise lines, through two recent 
decisions--I know my time is running out but I want to get to 
the end of this--two recent decisions, one out of Florida, are 
marching their way toward immunization from lawsuits of medical 
malpractice. This is a situation where folks are out there in 
the middle of the Atlantic or the Pacific and it is an isolated 
situation they are in, they have no choice but to go to these 
doctors.
    Next, Fred and Ethel Mertz, those may not be fictitious 
names, I do not know, but Fred and Ethel go on an excursion and 
they are robbed on a beach in Nassau. I chose that because 
there are numerous incidents, not just in Nassau, not just in 
the Bahamas, I love the Bahamas, but there are numerous cases 
arising out of people getting assaulted on these beaches. The 
fact is, on the one hand, the cruise lines say that the 
excursions are hand picked, they are monitored, they are 
continuously reviewed, but they are not. In fact, when a law 
suit is brought or if a lawyer is consulted, the cruise lines 
raise the fact that the excursion is an independent contractor.
    I want to get to two other scenarios and then I am going to 
finish up. Two actually involve crew members. You might say 
what do we care about these foreign crew members, you might ask 
me that question. The answer is, these crew members, some of 
whom are in the marine department and some of whom are in the 
hotel department, those folks are in charge of the safety and 
security of all those Americans who are on board those cruise 
ships. So if those folks are not healthy, and those folks are 
getting into trouble, we have got a problem. I cite in my paper 
an real life incident, and I am not kidding, where a life boat 
in a drill was suspended approximately 60 to 90 feet in the 
air, depending upon who you talk to, and the release mechanism 
for the life boat, these life boats are held on cables and 
lowered into the water, the release mechanism came loose and 
dropped to the ocean below, injuring five of the eight 
individuals on board. I am representing those individuals 
against the cruise line, which is Royal Caribbean Cruise Line. 
A similar incident happened one year before. There were no 
injuries, but a similar accident happened one year before.
    Mr. Cummings. Mr. Hickey, I am going to have to ask you to 
wrap up. I let you go two and a half minutes over.
    Mr. Hickey. Thank you, sir. I am going to go right to the 
end about the legislation that is being urged, at least by me, 
today. I would of course be glad and look forward to questions.
    One, Congress should consider amending the Death on the 
High Seas Act so that victims of cruise ship negligence are 
treated the same as victims of commercial aviation accidents. I 
make a very brief point here. People who die in cruise ship 
accidents and on the high seas are limited to economic damages. 
Actually, on page 12, at the top, I made an error in my paper. 
I said ``non-economic'' and I meant they are limited to 
economic damages.
    Two, Congress should consider requiring the cruise lines to 
preserve crime scene evidence. That has been discussed here 
today.
    Three, Congress should consider creating a central database 
to collect information about crime on cruise ships.
    Four, Congress should consider providing whistleblower 
protection for cruise line employees who report crimes.
    Five, finally, Congress should consider amending the 
Federal Arbitration Act to make it even clearer that the Act 
does not apply to actions brought by seamen under the Jones Act 
or for any other remedies. In other words, we have this Jones 
Act in place to protect these seamen and yet, through a recent 
11th circuit opinion and now the new clauses in contracts with 
these crew members, cruise lines are forcing through this law 
crew members to arbitrate in the Philippines or whatever home 
country, and therefore we have this Jones Act and it is not 
protecting these crew members, and these crew members are in 
turn protecting American citizens.
    Thank you, Mr. Cummings, and thank you, esteemed members.
    Mr. Cummings. We thank you, and all of you.
    Ms. Dishman, did you get any assistance from the FBI's 
Office of Victims Assistance?
    Ms. Dishman. I had a victims witness program, I had a 
victims specialist.
    Mr. Cummings. Was that helpful to you?
    Ms. Dishman. It was. My victim specialist, Serge Hernandez, 
was the reason why I was able to get the meeting with the 
Department of Justice. The FBI actually continued to question 
why this was necessary, what more would they need to tell me to 
help me understand that there just was simply was not enough 
evidence.
    Mr. Cummings. Anybody sitting up here, Ms. Dishman, you 
cannot see what we see, but sitting up here when you were 
testifying, there were women who were crying. I said it before 
and I will say it again, and one of our Congressmen on this 
side of the aisle said it, when you have a person who goes 
through something, I think it is kind of important that whoever 
is trying to remedy that situation try, try,--I cannot put 
myself in the shoes of a woman, but I know one thing, I would 
not want what happened to you happen to any woman in my life--
but to try to put themselves in your position.
    The reason why I am saying this is because you said you 
hope that we will listen to you and you hope that we would try 
to do something to help you, we are going to do the best we 
can. But when you sit here and you see women crying, and it was 
not little lightweight tears either, that is something that we 
cannot just disregard. I thank them for being here and 
supporting you.
    Let me go to you, Mr. Hickey. A little bit earlier, Mr. 
LaTourette asked the question about the laws that we presently 
have, what we are presently dealing with. Were you here when 
the FBI testified?
    Mr. Hickey. Yes, sir, I was.
    Mr. Cummings. We are legislators. It is nice when we can 
convince people to voluntarily do things. But we are 
legislators. When you look at the present laws and treaties and 
these agreements that we have or do not have, are there things 
that you would like to see us do? I know you have your 
suggestions. But as legislators, are there things that you 
would like to see us do? And then I do not know how familiar 
you all are with the agreement. You may have heard the FBI say 
they felt that it was a giant step in the right direction, and 
you heard the Coast Guard say that it was excellent. I am just 
wondering how you all feel about that.
    Mr. Hickey. Mr. Cummings, if I could. There are a couple of 
things that you have to understand, and I do not know if I am 
coming across too loud. First of all, the Coast Guard I believe 
said that there is a criminal penalty for not reporting certain 
crimes that occur at sea. But in a way that is begging the 
question, because while there is a criminal penalty if a 
statute was violated, the fact is, and I believe the Coast 
Guard so testified, there is not a requirement for the 
reporting beyond the 12 mile limit. So there may be a criminal 
penalty if you violate the law, but the law as we know it today 
is pretty narrow.
    Secondly, to talk about the agreement, and I know I am 
skipping around a little bit and if I am not answering the 
aspect of your question that you are focused on, please tell 
me, but as to the agreement, I believe I have seen a draft form 
of that agreement. Whenever the FBI and folks in this 
Government say we are working with the industry, and I know 
this industry, I get this knot in my stomach and I think maybe 
the American people are going to get it again. I think 
Congresswoman Matsui brought up, well, I hear you are working 
with the industry, are you working with the victims' rights 
folks? Are you working with the 10 million people that you all 
represent, that we are all a part of, that go on cruises every 
single year. Their trade association says that their market is 
40,000 and there are a lot of American citizens out there.
    And so I do not think a voluntary agreement is good enough. 
We have seen problems. That is why we are here. We are here 
because of problems in the past. We are here because, frankly, 
a lot of the publicity generated from the George Smith case. 
When push comes to shove, that is what happened. Congressman 
Shays got involved, and thank God that he did, and thank God 
for all of you spending your time and energy on this. The 
American people I am sure will thank you if, in fact, something 
constructive comes out of this, and I am sure it will.
    But no, I do not think that voluntary is good enough. Yes, 
think the laws are too narrow. And we see, for example, the 
limitations, I think it was Mr. Coble that asked about the 
marshals, and there were other questions I wanted to address of 
Congressman Coble, about the marshals on ships. I believe there 
are no marshals ever on these cruise ships. That is my 
understanding. I don't know about jurisdiction, but of course, 
you folks are the folks who can change the jurisdictional 
aspect about that.
    Mr. Cummings. I am going to get to you next, Dr. Klein, but 
I really would like for you all to, once you get a chance to 
see the final document, to provide us with your written 
comments. I asked the question, as you probably heard a little 
bit earlier, I don't necessarily, Mr. Hickey, I understand what 
you just said about when, you have the Coast Guard and the FBI 
working with the industry, I understand the distrust, and trust 
is very important.
    But it doesn't concern me, as a matter of fact, as you 
heard me say, I am glad they were working together, we have a 
different view on that. What does concern me, however, is when 
groups like the one represented by Mr. Carver are not a part of 
the process, at least to have some comments or what have you. 
After all, it is people like Ms. Dishman and others who, and 
you, Mr. Carver, who are in a position to take this whole issue 
to the level that we see it on today.
    So I think it just seems to me, I think that is a glaring 
error, when those comments are not a part of the process.
    Dr. Klein?
    Mr. Klein. I will be as brief as I can, I won't go on too 
much. For me, I find that the voluntary arrangements do not 
work and are not a route to go. I prepared a couple of years 
ago a brief for Bluewater Network dealing with environmental 
issues and ran out very carefully the pros and cons of 
voluntary versus legislative approaches. I would be more than 
happy to provide to the Committee that documents as background.
    Let me just give a couple of examples in terms of why I 
come to this conclusion. In 2002, Crystal Cruises gave a 
commitment to the City of Monterrey, California, that it would 
not discharge anything while in the Monterrey Sanctuary off the 
west coast of California. Several months after it was there, it 
was disclosed that in fact the cruise line discharged 36,000 
gallons of raw sewage and gray water. When the vice president 
of the company was asked by the local community why he didn't 
report it when it happened, his response was, we didn't break 
the law, we only broke our word.
    Hawaii has a memorandum of understanding that the industry 
recently pulled out of. The first year, there were between 14 
and 16 violations of that voluntary arrangement, including 
violations of a written commitment by Royal Caribbean and other 
cruise lines that they discharge nothing within 12 miles of the 
coastline. The MOU was with a four mile mark, they violated it.
    And most recently, in Washington State, there were MOU 
violations, both in the first two years. The most recent 
violation was a case where the cruise ship was fined for 10 
violations of discharging within Washington State waters. The 
cruise line came forward and said, wait, three of those 
happened in Canada, we shouldn't be fined because Canada 
doesn't fine us. The State came back and said, fine, we won't 
fine you for those three, we will only fine you for the seven. 
And the cruise line said, we will pay you $100,000 anyway to 
show our commitment to the marine environment of the State of 
Washington. Those are the only things I wanted to say.
    Mr. Cummings. Dr. Klein, I want to make sure my comrades 
here have an opportunity to speak.
    Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman. I think in fairness 
we will go to Mr. Coble first if that is okay with you.
    Mr. Coble. Thank you, sir, I appreciate that.
    It is good to have you all with us, Ms. Dishman, especially 
you. Ms. Dishman, the United States attorney declined to 
prosecute the case involving your situation, is that correct?
    Ms. Dishman. Yes.
    Mr. Coble. And I presume that no criminal charges were 
preferred?
    Ms. Dishman. No.
    Mr. Coble. Did any representative, Ms. Dishman, of the 
cruise line, suggest that you contact the FBI or the Coast 
Guard to report the incidence of the assault?
    Ms. Dishman. No, they basically, when meeting with the 
staff captain, gave me what my options would be when the crime 
had occurred.
    Mr. Coble. Mr. Carver, in your testimony you include 
suggestions on how to enhance passenger safety and security 
aboard cruise vessels. Have you approached the cruise lines to 
discuss the possibility of implementing some of those 
suggestions?
    Mr. Carver. The answer is absolutely yes. I had a meeting 
with the President of Celebrity Cruise Line last June at his 
request. I said, here they are, there are 60 pages, we are 
willing to sit down and talk about them, because this is a 
serious document. This was not made up by me, it was made up by 
experts in the world. And I didn't get an invitation to further 
explore that conversation.
    But we do have, in my testimony, we see the president of 
P&O Princess Lines in Australia saying that their highest 
priority is to look at our ten point program and they represent 
legitimate suggestions for the cruise line industry. I think it 
is amazing that a group of victims with no money, just telling 
the cruise lines what they should do, and they are not off the 
wall documents, they are serious documents.
    Mr. Coble. Thank you, sir.
    Mr. Hickey, what should future passengers know or do to 
better equip them to deal with unpleasant incidents that may be 
forthcoming?
    Mr. Hickey. I think one thing, and there are a lot of 
suggestions that Mr. Carver and Dr. Klein have that may be more 
powerful than this, but I think at a minimum, when a passenger 
comes on board, a piece of literature that should be put in 
their hands, rather than or in addition to the 20 pages ticket 
that they get with all the ways in which the cruise line will 
prevent them from suing them, I think they ought to get a 
notice that if you get into trouble, you can call the FBI at 
this phone number. That would be a simple start.
    Because they do get a lot of literature, and they do get 
the fine print on a booklet which is called their ticket. It is 
basically a lot of exclusions and exculpatory clauses. I think 
that was one start. Because as Ms. Dishman said, and I hear 
this from folks, when I get the calls, I hear this from folks, 
I didn't know where to go. I am on their ship.
    If I get robbed outside this building here, or even inside 
this building, I can walk outside and go to a police officer. 
And if I get robbed in my hotel right down the street, I can go 
outside and get a police officer and say, hey, somebody robbed 
me in that hotel, or one of the employees of the hotel robbed 
me. On a cruise ship, I can't walk off.
    Mr. Coble. Yes, there is an isolation factor there.
    Ms. Dishman, was there ever any sort of a settlement 
presented to you?
    Ms. Dishman. A settlement presented to me, in pursuing this 
civilly, was the recommendation from the Department of Justice. 
That is why I am here today with Congress. He told me to pursue 
this with Congress and civilly. As far as a settlement, what I 
have seen from the attorneys that work for Royal Caribbean, and 
I also invite any of you to have a copy of the deposing that 
was just done of my case with their law firm, their job is to 
get in there and take care of this. It is like they want to put 
you away in a box and make you go away.
    Mr. Coble. Again, thanks to all of you. Mr. Chairman, I 
want to thank the gentleman from Louisiana for having yielded. 
I appreciate that, and I yield back.
    Mr. Cummings. Thank you very much. Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman.
    Let me just be clear. As a female and as a mother, I am 
very sensitive to the issues that we are discussing. I found 
law enforcement across the board, whether it is in the cruise 
line or in the neighborhood, they are not very sensitive in 
dealing with women that are victims and we need to address it 
across the board. This is not an isolated incident. This is a 
problem throughout law enforcement.
    I am very interested in looking at the recommendations. 
Because I have not seen the recommendations, Mr. Chairman.
    I guess the other issue is, I need to be clear that we are 
dealing with victims and the issues about discharge and other 
things are for another hearing. So I just want to see the 
recommendations and as we move forward, I am very interested in 
making sure that we have procedures in place that will protect 
the victims and making sure that we have proper reporting. 
Also, the security that may be necessary, additional security 
on the ships.
    Thank you. I yield back the balance of my time.
    Mr. Cummings. Thank you.
    I want to thank you, Ms. Brown. There is no doubt about it, 
I think anybody who knows Congresswoman Corrine Brown knows 
that she simply seeks justice in every form. So I appreciate 
your comments.
    Mr. Boustany.
    Mr. Boustany. Mr. Chairman, if you don't mind, we will go 
to Mr. Young next.
    Mr. Young. I thank the gentleman and thank you, Mr. 
Chairman. I appreciate these hearings.
    I will have to say right up front, I am a big supporter of 
the industry and the effect they have upon my State. I have 
done a little research on what occurs on cruise ships versus 
what occurs on land. Overall, I would say the cruise industry, 
although the victims will not agree with me, have done an 
outstanding job, and can do better. But it always strikes me 
awfully strangely that when there is a success in an industry, 
there seems to be those in the legal profession who will try to 
figure out some way they can get into their skivvies. And that 
bothers me a great deal.
    If this is to protect the victims, we can do something to 
protect the victims, I will help that. But remember, this is a 
cruise industry. These are people that go into really a 
floating city. Yes, we can have background checks on our 
cruise. But we can't check every passenger that goes on board 
that ship. We don't know the conduct or what they are going to 
do. We just had a 20 year old and a 22 year old fall off 60 
feet into the water. Do we build higher walls? That is a 
possibility. Will the public like that? I am not sure. That is 
something that you have to ask the public.
    As far as the crew, yes, we can work better on that. But it 
strikes me that there is a tendency, Mr. Chairman, to look upon 
this as yes, to help the victims, but maybe there is something 
else behind it that they can make sure that there is a manner 
of wealth that is generated by lawsuits that may not hold the 
merit. I would suggest, respectfully--I can say what I wish, 
and please be quiet----
    Mr. Cummings. Excuse me, would the gentleman yield?
    Mr. Young. Yes.
    Mr. Cummings. I would just ask that the audience refrain 
from statements, please. The gentleman has the floor and we 
must maintain a high level of decorum.
    Mr. Young. They are working together to try to make sure 
this works. Remember who you are dealing with, and that is the 
general public. These are floating cities. There are actually a 
large part of people that go on these cruises to have a good 
time. And yes, it may not turn out that way.
    But we have to look and make sure that we do the best we 
can to solve problems without setting a land mine to try to 
hurt an industry that has been very beneficial to my State. I 
yield back the balance of my time.
    Mr. Cummings. I want to thank the gentleman for his 
statement.
    Let me just say to the gentleman, before you got here, I 
have said it now probably six or seven times, that I wanted 
this to be a fair hearing where we looked at the situation and 
even probably one of the most profound statements that was made 
was made by Congressman Poe, who talked about fairness. And 
what we are trying to do, and we also talked, Congressman 
Young, how we had to look at the situation and we had to 
measure our response, so that our response would match the 
significance and the seriousness of the situation.
    So I just wanted you to understand that. I do appreciate 
your comment.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    First of all, I believe this is not a hearing on trial 
lawyers at all. Laurie Dishman came to me as a constituent, and 
she was very, very brave to do that. It is very difficult, as 
Ms. Brown has said, for women to have to deal with assault and 
rape. And she is an ordinary person, doing her work in 
Sacramento, California, with neighbors. I know it is really 
very difficult for you.
    My hope is through this hearing we might be more 
enlightened. I had actually thought that it would be wonderful 
to take a cruise. I have a couple of wonderful grandchildren, 
aged 3 and 6 months, and I thought it would be great to take my 
little family on a cruise. I saw all the commercials on 
television and thought, isn't this wonderful, the parents can 
go off somewhere, maybe the kids will have their own area. And 
it was a wonderful presentation. Because I am always trying to 
think about ways to put the family together.
    Until Laurie came to me, who by the way, she tried 
everything before she came to me. It was only when she came to 
me that she was able actually to get her medical records. And I 
don't believe you should have to go to a member of Congress to 
do that.
    But I must say that I hope that we could keep this 
discussion on a plane where we can come to some solutions here. 
It was very painful for Laurie to come here. Mr. Carver, the 
pain you had to go through, and in essence, to do the work you 
have done honors your daughter. My feeling is that there are 
some really good suggestions here. I know the victims have some 
wonderful suggestions.
    I would certainly encourage the industry to get together 
with some of these victims in a manner in which we want to move 
forward to have a safe industry, where we could have fun. I 
really think there are a lot of suggestions that were presented 
here that would be wonderful to move forward on.
    I am not at all saying that we shouldn't have cruises. I 
think it would be wonderful. And I want to go on a cruise. But 
I am hesitant now, I am hesitant. And there are going to be 
people out there like me who are hesitant. I hope that the 
cruise industry can get together with the victims and with 
others like us, so we can work toward some sort of solution 
here.
    We understand that this is a different situation, being on 
a ship. Having said that, though, I think Judge Poe said it, 
one victim is too many. So I thank you very much for being here 
and I appreciate very much the opportunity to say a few words. 
Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    You know, Mr. Chairman, it is unfortunate that we are 
having this hearing in the first place, given that cruises 
should be an enjoyable event for those who take them. I came in 
late, so I have only heard some of the testimony. But it is 
truly disturbing to hear what has been said.
    As we look at what happens, I am a physician, I have dealt 
with health care and I understand we are dealing with health 
care concerns on cruise lines now. We have crime, we have the 
environment where there is also the possibility of terrorism. 
These are all things that we need to look at.
    But I really have one basic, fundamental question. I would 
like to ask each of the witnesses this. I know Mr. Carver 
partially answered it earlier when he was asked about whether 
he has approached the cruise lines and talked to them about 
adopting certain measures.
    If we are going to look at prevention in particular, I 
would like to know, what can the cruise lines do? What 
recommendations do you have to the cruise lines that they could 
undertake, provided they are willing to do so?
    Mr. Carver. A year ago, I presented this ten point program. 
I don't know if you have had time to review it.
    Mr. Boustany. I apologize, I have not had a chance to look 
through it.
    Mr. Carver. Well, it was just a very brief summary. But if 
you look at it, it is a pretty common sense piece of paper. At 
that hearing, I went to Michael Crye at the break and I said, 
Michael, you and I ought to work together. I have since written 
him a letter, to which I did not receive a response. I think 
what the cruise line did with the FBI and Coast Guard today, I 
have to say was a move to shortcut legislation. If it is 
necessary that these things are going to be reported, then hey, 
let's make it a law. Let's not make it voluntary. Because I 
have no sympathy, no sense that it will happen.
    So if it is a matter to shortcut legislation, I really 
object to that. We were excluded, Congress was excluded. If 
they are going to do all these things, then let's put it into 
law.
    Mr. Boustany. Are there any other suggestions?
    Mr. Carver. The program, it is very detailed. One of the 
suggestions, we have had three people go off a ship in the last 
three days, just fall off overboard. In our detailed proposal, 
which is here, we have actually suggested structural changes to 
correct that problem, to keep people from just, if they are 
drunk or whatever, falling off a ship.
    One of the strong suggestions that I have, which I fear 
that the cruise line would shudder at, is that there be 
independent security on those ships that, when a crime happens, 
they don't report to the cruise line, their job is to address 
the issue. If you go on our web site, you will find a very 
detailed report, how this can be set up with the other 
countries where those ships are flagged.
    It is like a sky marshal on an airplane today. When the 
cruise lines take the position that they do, that they don't 
investigate crimes on ships, they just contact the FBI, that is 
not workable. I think that is one of the major things that 
should be done. And frankly, I think it would be good for the 
cruise lines to do that, because it would give the passengers a 
sense, and you can read my documents, of comfort, of safety, 
that if something happens, there is going to be somebody there 
who is independent, like you call the police here in town and 
they are right there. On a cruise ship, there is no one to call 
that is there to support your position. I think that is the 
most significant thing that could be done. The details are 
actually on our web site, in minute detail, concerning the need 
for outside security on board those cruise ships.
    Mr. Boustany. Do any of you care to comment on what was 
said here, or to elaborate further?
    Ms. Dishman. I agree with Mr. Carver. I do recommend 
something, such as like a Federal marshal. Here in my case we 
had a security guard who was normally a janitor. I have now 
found out that there were only three security guards on duty 
for 3,000 passengers. You are talking about a Royal Caribbean 
city that is lawless. There are no laws. Not only was I raped, 
but I had no sense of anywhere to go and what to do.
    I agree with Mr. Carver, some type of independent security. 
And not only does the cruise line need to work with this, but 
also the FBI and Department of Justice needs to help 
communicate with them and with each other. My Department of 
Justice was not even aware that my assistant U.S. attorney had 
declined my case the day that the FBI boarded the ship. So I 
just feel that all of us together can help make this happen.
    Mr. Boustany. Dr. Klein, do you want to comment?
    Mr. Klein. Yes, please. I don't work with the International 
Cruise Victims Organization, so my position isn't the same as 
theirs, but I think it is consistent. I would make two points. 
One is I think the industry needs to be honest about the risk. 
I think to say that a cruise is the safest environment one can 
be in is misleading. And I am not suggesting they go out and 
say, we are dangerous. But I think they need to be realistic 
with passengers, to take care on cruise ships like they do on 
land.
    The other thing is, from my view, and I am trying to 
remember where I put it, I think it is in my last book, I argue 
that there should be independent ombudspeople onboard a cruise 
ship who are not part of the officer structure and are not 
beholden to the cruise line. Having someone independent, a 
passenger or a crew member who has been assaulted or otherwise 
has had a crime committed against themselves can go to and deal 
with. I think this is critically important, both for the 
victim, but I think that when we think about crimes perpetrated 
by crew members, if a crew member knows that there is a system 
in place, that they are going to get caught, there is now going 
to be an impediment to them committing those crimes.
    So for me, in my ideal world, those would be the first two 
things we should be looking at.
    Mr. Boustany. Thank you. We have talked about legislative 
remedies, we have talked about legal remedies. But I wanted to 
focus a little bit on prevention and where things could go in 
terms of preventing these types of events and problems.
    Thank you. I yield back.
    Mr. Cummings. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Mr. Chairman, just a couple of quick 
observations, to Mr. Carver's point of losing a family member 
and the ship never recorded it. It strikes me that yesterday, I 
bought a $12.90 pair of vice grip pliers at a Wal-Mart and the 
lady at the checkout counter forgot to demagnetize it. So as I 
was walking out of the Wal-Mart with a $12.90 pair of pliers, 
the alarm goes off. You would think if we could do something 
like that for a pair of pliers, we could find some way to have 
a name tag. I recently visited Mr. Boustany's State for Mardi 
Gras. The hotel where I stayed, I had to have an arm band to 
get in. Almost every fair or festival I have ever visited 
requires something similar to that.
    So again, I have followed the cruise ship industry with 
some amount of interest. They have the laws exactly the way 
they want them. They don't pay taxes, they are considered 
foreign entities. They come here and their folks don't pay 
minimum wage. They don't live by the ocean laws. Apparently on 
several occasions, they have decided they are not responsible 
to live by the pollution laws.
    And yet, if I am not mistaken, something like 98 percent of 
all people who ever set foot on a cruise ship will be 
Americans. I think we as a Nation have to decide, are we going 
to wait for a 9/11 type event to take place, where a large 
number of Americans are put at risk, possibly a large number of 
them hurt before we respond? Or are we going to start taking at 
least incremental steps to rein in this industry where so many 
Americans participate, and yet it is almost virtually outside 
the scope of American law?
    So I will just pass that on. I appreciate our witnesses 
being here. There are actually instances where foreign-flag 
vessels operate out of American ports on a daily basis, go 12 
miles out to sea, turn around and go back and they are exempt 
from the same laws as the tugboat to their left or the fishing 
vessel to their right, because they are operating under 
something called a cruise to nowhere. We tried to address this 
the last time the Democrats had control of the House, and the 
folks from the cruise ship industry were sitting in the back of 
this room, did an excellent job of killing that in the Senate. 
I am sure they got a bonus out of the deal, and yet the 
loophole in the law exists.
    So it is something we need to look into. I very much 
appreciate your having this hearing. I hope it doesn't take a 
9/11 type event before this huge vulnerability occurs. For 
example, if I were to get on an airplane with a bag and the bag 
is down in the hold of the aircraft, I can't leave that plane 
unless the bag is also removed. The reason for that is, they 
don't want someone getting on a plane with a bomb and at the 
last minute acting like they have stomach ache and getting off, 
and then the plane takes off and the bomb explodes.
    In the instance of Mr. Carver's daughter, you would think 
that there would be the same sort of security mechanism where a 
passenger could get on, and maybe the passenger voluntarily 
jumps overboard and leaves a bomb behind. There ought to be a 
way, again, going back to that pair of vice grips analogy, 
there ought to be a way to track that passenger while they are 
on the vessel. I can't believe it is out of the realm of our 
technological expertise. I can't believe that it is cost 
prohibitive. Again, a $12 pair of pliers, compared to that, the 
loss of human life, this needs to be addressed. Again, the vast 
majority of the people who are going to get on those ships are 
Americans. I think we owe it to our fellow Americans to try and 
address this.
    Thank you very much.
    Mr. Cummings. I want to thank you for your comments, and I 
want to thank our witnesses. I just want to go back to one 
thing, Mr. Carver. It really concerns some things that just 
about everybody up here has said. It is an interesting 
observation, in your written testimony you wrote these words, 
which really struck me. You said, ``We need to address 
solutions to this problem in order to protect future 
passengers. The goal of the ICV,'' that is your organization, 
``is not to damage cruise lines, but to hold them accountable 
for the safety of future passengers and crew members, and to 
require prompt and accurate reports to authorities of crimes, 
deaths, disappearances and other matters that would normally be 
investigated if they had occurred on land.''
    As I sit here and listen to you, listen to Ms. Dishman, and 
listening to Ms. Brown, Ms. Matsui, Mr. Boustany and Mr. Taylor 
and others, I think that you have come to the table saying, we 
want to work to come up with solutions, we are not, we have 
been through some horrible pain and we have to live with that 
pain until we die. We just don't want others to have to go 
through what we went through.
    I hope the industry, who is about to come up next, I hope 
they are listening very carefully. Because I think one of the 
things that we are going to have to do is we need to try to 
revisit this agreement, so that hopefully we can have all the 
parties coming together.
    But I want to thank you for your attitude, which is one of 
trying to come to a solution. Because we can argue and argue 
and argue and we still don't come up with a solution. Then like 
you said, Ms. Dishman, a few years from now, or maybe even next 
week, there is another Ms. Dishman going through the same 
things.
    We are going to hear from the industry now, but again, I 
thank you all. Is there anything else?
    Thank you all so much. We really appreciate all of you.
    We will call up the next panel now.
    Mr. Terry Dale, the President of Cruise Lines International 
Association; Mr. Charles Mandigo, Director of Fleet Security, 
Holland America Lines, Inc.; Mr. Gary Bald, Senior Vice 
President and Global Chief Security Officer, Royal Caribbean 
Cruises, Ltd.; and Mr. Larry Kaye, Senior Partner, Kaye, Rose 
and Partners.
    Mr. Dale?

TESTIMONY OF TERRY DALE, PRESIDENT, CRUISE LINES INTERNATIONAL 
   ASSOCIATION; CHARLES MANDIGO, DIRECTOR OF FLEET SECURITY, 
HOLLAND AMERICA LINES, INC.; GARY BALD, SENIOR VICE PRESIDENT, 
 GLOBAL CHIEF SECURITY OFFICER, ROYAL CARIBBEAN CRUISES, LTD.; 
      LARRY KAYE, SENIOR PARTNER, KAYE, ROSE AND PARTNERS

    Mr. Dale. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Terry Dale, and I am the President and 
Chief Executive Officer of Cruise Lines International 
Association. Thank you for this opportunity to present 
testimony on behalf of our members.
    First, I wish to express our sincere condolences to those 
individuals we have heard from today. Nothing I can say today 
can take away from their pain and their grief. Any experience 
of this type, however rare, causes the industry to increase its 
efforts for safety and security. The cruise industry wants to 
do the right thing.
    CLIA is North America's largest cruise industry 
organization, with a membership of 21 member cruise lines, 
16,500 travel agencies and 100 executive partners. By way of 
background, in 2006, CLIA merged with the International Council 
of Cruise Lines, ICCL, thereby expanding its membership and its 
mission. CLIA participates in the regulatory and policy 
development process, while supporting measures that foster a 
safe, secure and healthy cruise vacation. It also provides 
travel agent training, research and marketing communications.
    Here to support the industry today are senior executives 
from our travel industry partners. I would like to invite them 
to stand: American Society of Travel Agents, the National 
Association of Cruise-Oriented Agencies, Vacation.com, and 
Cruise Shops. Together with CLIA's agency members, this group 
represents millions of satisfied and happy cruise vacationers. 
We thank these organizations for their support today.
    Mr. Chairman, I am here today, however, to emphasize to the 
members of the Subcommittee several important facts. Cruising 
is safe. This year, over 12 million passengers will board 
cruise ships. Ensuring their safety and security is our highest 
priority. I am proud to say that the industry has an enviable 
record when it comes to safety and security. The U.S. Coast 
Guard, in a comprehensive report, has emphasized that passenger 
vessels are among the safest way to travel. We know of no 
reason for that opinion to have changed. We find this statement 
true today, because and due to our stringent security policies 
and procedures.
    A cruise vessel is comparable to a secure building with a 
controlled environment, limited access and 24 hour security 
team. Heightened security measures are standard for cruise 
ships today. The cruise industry has comprehensive security 
measures in place to ensure the safety and security of all our 
guests. A security officer and trained security staff are on 
every vessel, whose duties are solely to provide safety and 
security to our guests and crew. The gentlemen seated next to 
me are corporate security officers for the cruise lines, as 
well as veterans of the FBI.
    All crew members employed aboard our vessels are required 
to obtain a U.S. visa and are subject to State Department 
background checks. Cruising is one of the most popular vacation 
options, in large part because of its excellent safety record 
and high level of onboard service.
    The cruise industry cares about its passengers. Our 
passengers make the strongest statement about its safety and 
security. More than 55 percent of cruisers today are repeat 
cruisers. In addition, cruise passengers have a total 
satisfaction of 95 percent. We must be doing some things right 
to have these types of ratings.
    The cruise industry has a zero tolerance for crime. Our 
industry takes all allegations and incidents of crime onboard 
seriously and reports them to the proper authorities. While 
even one incident is one incident too many that occurs on a 
passenger vessel, the industry continues to reiterate its 
commitment to ensure the safety of our guests.
    In the rare occurrence it is needed, CLIA member lines have 
trained staff to support families and individuals during 
emergency situations. In this past year, many of our member 
lines have strengthened their guest support teams, both onboard 
and shoreside, to aid in grief and trauma counseling, to ensure 
that individuals and families receive proper assistance. In 
addition, onboard security staff receive comprehensive training 
from agencies such as the FBI, CBP and U.S. Coast Guard in 
evidence collection and crime scene preservation.
    Our FBI agreement. To further demonstrate the industry's 
commitment to safety and security, I am pleased to announce 
today a formal agreement between CLIA, the FBI and the U.S. 
Coast Guard. This agreement further clarifies reporting 
procedures for all serious violations of U.S. law alleged to 
have occurred aboard our cruise ships and outlines the 
jurisdiction that the United States has over these crimes. CLIA 
worked with the FBI and the Coast Guard over the past year to 
create uniform reporting requirements which are supplemental to 
existing laws.
    Let me hasten to add, Mr. Chairman, that the industry is 
willing to work with this Committee to further clarify the 
regulations. We sought this agreement to further the industry's 
own zero tolerance for crime policy adopted in 1999. Let there 
be no doubt that we are fully committed to bringing criminals 
hurting anyone on our cruise ships to justice. A more detailed 
explanation of laws and regulations governing crime reporting 
will be provided in the testimony of Mr. Larry Kaye.
    Statistics demonstrate the industry's commitment to safety. 
While virtually no place on land or sea is totally risk-free, 
the number of reported incidents of serious crime from cruise 
lines is extremely low, no matter what benchmark or standard is 
used. This statement was made by nationally renowned 
criminologist Dr. James Alan Fox of Northeastern University, 
who is here with us today and testified last year before the 
House Subcommittee on National Security, Emerging Threats and 
International Relations.
    I would also like to address concern regarding the accuracy 
of what was reported at the January 2006 hearing. We stand by 
the data that was submitted as being honest and accurate.
    In conclusion, Mr. Chairman, I would again like to express 
our sympathies and heart-felt remorse to the individuals here 
today. CLIA and its 21 member cruise lines are constantly 
reviewing industry practices and procedures. We will apply any 
lessons learned that can be learned to ensure the safety of our 
passengers. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Mandigo?
    Mr. Mandigo. Thank you, Mr. Chairman.
    If I could ask for my whole statement to be entered into 
the record and for brevity, I will go ahead and shorten that 
for an oral presentation.
    Mr. Cummings. So ordered. Let me just say this, I want you 
all to say what you have to say. But we are going to have a 
vote probably at around 15, 20 after. You can do it however you 
wish. There may be a point, though, if we can finish this, we 
won't have to come back. I don't want to cut you short. I want 
you to stay within the five minutes, but just keep that in 
mind. Because if we go past that, say 1:30, we are going to 
have to come back. I don't mind coming back, I will be here 
until tomorrow if necessary. I just want to make you all aware 
of that.
    Mr. Mandigo. Thank you very much, Mr. Chairman.
    Mr. Chairman, members of the Committee, on behalf of 
Holland America Line, I thank you for inviting me to testify 
before you today. I am the Director of Fleet Security for 
Holland America Line, a Carnival company, a position I have 
held for nearly four years. As Director of Fleet Security, I am 
responsible for Holland American Lines' security programs and 
for compliance with all security directives by governments and 
other regulatory agencies as to terminal, ship, passenger and 
cruise security practices and procedures.
    Immediately prior to joining Holland America Lines, I 
served with the Federal Bureau of Investigation for 27 years, 
working out of offices in New York, Chicago, Washington, D.C. 
and Seattle. Over the course of my career, I was responsible 
for cases involving all matters within the FBI's jurisdiction, 
including anti-terrorism, intelligence and crimes on the high 
sea. In my final assignment, I served as Special Agent in 
Charge of the Seattle office of the FBI, where I was 
responsible for all FBI matters within the State of Washington.
    Holland America Line is one of a number of brands owned by 
Carnival Corporation, which in total operates a fleet of 82 
modern passenger vessels serving worldwide markets. Holland 
America Lines strives to provide a safe and secure cruise 
experience for its passengers and is committed to taking the 
measures necessary to enure the security of its passengers.
    The first step in preserving passenger security is 
deterrence. However, Holland America Line also recognizes the 
importance of ensuring the appropriate handling and response to 
any report of a possible crime. Accordingly, all crew are 
provided basic training in security. The chief of security and 
his team have primary responsibility for responding to any 
incident. Members of the security force are trained in 
appropriate investigative techniques, such as crime scene and 
evidence preservation. Our security officers generally have 
backgrounds in Federal and local law enforcement or military 
backgrounds with significant security and peacekeeping 
experience.
    Holland America Line takes operational security aboard its 
vessels seriously and cooperates closely with its flag and port 
States to report and investigate security incidents as 
appropriate. In short, the safety of Holland America Lines 
crews and passengers is our highest priority.
    I appreciate the opportunity to appear here before you 
today, and I will answer any questions you may have.
    Mr. Cummings. Thank you very much, Mr. Mandigo.
    Mr. Bald?
    Mr. Bald. Thank you, Mr. Chairman and members of the 
Subcommittee. And thank you for inviting me here today to 
address the questions that this Committee has.
    My name, as you mentioned, is Gary Bald. I am the Senior 
Vice President for Security for Royal Caribbean Cruises.
    Let me begin first by extending my heart-felt sympathies 
and apologies to Mr. Carver, whom I met for the first time 
today and had an opportunity to chat with him. I look forward 
to the opportunity, as I expressed before this hearing, to meet 
with him and to discuss his concerns and his suggestions for 
how we can improve security that we afford to our guests on 
board. I would also like to extend my sympathies to Ms. Dishman 
for the traumatic experience that she had on our cruise ship. I 
have not had a chance to meet Ms. Dishman. We have invited her 
down to speak to us, to talk to us about her concerns, but her 
lawyer has suggested that there may be a better time to do that 
later.
    Before joining Royal Caribbean in June of 2006, I retired 
from the FBI, where I spent nearly 29 years. I gained broad 
experience in both national security and criminal law 
enforcement. In my most recent position at the FBI, I served as 
the Executive Assistant Director for the National Security 
Branch, which is the third senior-most position in the Bureau. 
In that position, I headed the Bureau's counter-terrorism, 
counter-intelligence and intelligence programs worldwide, and 
directed the efforts of approximately 19,000 employees. I spent 
most of my FBI career in the field, conducting or supervising 
criminal investigations and aiding criminal prosecutions. In 
short, my life's work has been dedicated to security and I 
intend to continue that to proceed.
    Nothing is more important to Royal Caribbean than the 
safety of our guests and our crew members. Both our actions and 
our record, I believe, prove that. Of course, we are not 
perfect, although we strive to be. In those moments when we do 
fall short of our own expectations, we make every effort that 
we can to learn from them and to strengthen our policies and 
our procedures. We work hard to keep our guests and employees 
safe. However, even one crime is one crime too many. We take 
every allegation of a crime seriously, reporting allegations to 
the FBI and to other authorities where appropriate. It is worth 
noting that the overwhelming majority of allegations that we 
report to the FBI would never receive their scrutiny were they 
to occur on land.
    I want to briefly address the statistics that our industry 
provided to Congressman Shays and his Subcommittee, as has been 
mentioned briefly before. Mr. Chairman, based on everything I 
know about the matter, I believe the information Royal 
Caribbean provided to Congressman Shays is true and accurate. 
It was at that time and it is still today. If I were given the 
opportunity to resubmit those statistics, they would be 
identical, based on what his request was.
    Royal Caribbean is a company, I believe, with a high degree 
of integrity. I believed this to be true when I accepted my 
position there last June and I believe it to be true today. I 
will mention that if it were not true, or if I find it is not 
true at any time during my employment, I will cease my 
employment with Royal Caribbean. In my opinion, any suggestion 
to the contrary on the statistics we provided to Congressman 
Shays distort the fact and ignore the truth.
    Royal Caribbean has worked diligently to improve guest and 
crew safety. I would like to give you just a few examples of 
what we are doing. A fuller list of initiatives is in my 
written testimony, which I request be made a matter of record.
    First, we are improving onboard security. This includes 
spending more than $25 million, that is $25 million, Mr. 
Chairman, to update and expand our onboard video surveillance, 
focusing training on evidence preservation and placing more 
security on board certain ships in a program that we are 
currently piloting. Second, we are strengthening our ability to 
provide guest with special assistance, working closely with the 
Family Assistance Foundation, formalizing our rapid response 
guest care team, which is available 24 hours a day to travel to 
any ship around the world, and building a relationship with the 
FBI's Office of Victim Assistance.
    Third, we have improved our onboard SeaPass system and 
bolstered our alcohol policies. Our SeaPass system helps our 
security staff know which guests are crew members are on board 
and which are not at any given time. We have made a significant 
modification to our SeaPass process, subsequent to Mr. Carver's 
losing his daughter. Previously, guests were not required to 
swipe their SeaPass cards when disembarking at the end of a 
cruise. Today they are required to do so, and it gives us 
accountability, much more reliably, to say who is on board our 
ships and who is not.
    Additionally, we have implemented an award-winning alcohol 
training program and other innovations to assist us in 
responsible alcohol service. We are doing much more than this, 
but these demonstrate some of the significant efforts that we 
are making for our guests and crew.
    Again, Mr. Chairman, I would refer you to my testimony, 
where you will find a chronological list of 13 examples of 
security initiatives that have been taken over the last year, 
plus that I believe speak to some of the issues and questions 
that have been raised here today.
    Before ending my remarks, I would like to address the 
testimony of Ms. Dishman. Clearly, she is very upset by the 
events that occurred during her cruise, and as I mentioned, I 
am sincerely sorry about those events and I extend my deepest 
sympathies to her. We tried to help her in every way that we 
could, and we accomplished that in some respects, but in 
others, frankly, we came up short.
    I want to make one fact very clear to the Subcommittee. As 
soon as Ms. Dishman reported her allegation, our ship's 
personnel took immediate action. We immediately offered medical 
assistance to Ms. Dishman and we promptly notified the FBI and 
provided it with all information that they requested. Ten FBI 
agents boarded the ship and conducted an investigation, 
including interviews of witnesses. Ultimately, after completing 
its investigation, the FBI decided not to arrest or charge 
anyone with a crime.
    In some ways, however, we came up short. We apparently did 
not adequately secure Ms. Dishman's cabin. Although it appears 
that this had no effect on the FBI's investigation, the manner 
in which we carried out this task was neither consistent with 
our policies and practices nor our ethical obligation to our 
guests. We should have done more to support Ms. Dishman's 
personal and emotional needs onboard the ship. We also should 
have provided Ms. Dishman with additional information sooner 
than she requested. I am sorry for that delay.
    Learning from those events, we have now authorized our 
staff to release certain critical information to claimed 
victims. Given the strict liability that cruise lines face, we 
sometimes respond like other large companies facing a lawsuit: 
we become too defensive. Despite this fact, we will be 
providing more information sooner from this point forward. 
Again, Mr. Chairman, I refer you to my written testimony for 
details as to those changes.
    We are using the lessons that we have learned in two 
important areas. First, in our effectiveness in responding to 
incidents. in my view, Royal Caribbean is very adept at 
handling routine issues and guest-related incidents. However, 
in situations such as Ms. Dishman's, involving intimate contact 
between a guest and a crew member, or between two guests, we 
are less practiced, primarily because these incidents occur so 
infrequently. This also increases our chances of making a 
mistake.
    I was hired by Royal Caribbean to assist the company in 
many ways. None is more important than in situations like this. 
I am working to improve training, incident communication and 
oversight to address these areas.
    Second is guest support. In response to our need to improve 
our efforts to provide personal and emotional support, we have 
created the guest care team, which I mentioned earlier. This 
dedicated team has been primarily pressed into duty in response 
to medical emergencies, but has also supported victims of 
alleged sexual assaults.
    Mr. Cummings. Mr. Bald, could you wrap up? I have let you 
go three minutes over. Just wrap it up.
    Mr. Bald. Thank you, Mr. Chairman. I will.
    Mr. Cummings. It is not that it is not very interesting.
    Mr. Bald. Thank you.
    This team has received overwhelmingly positive feedback 
from alleged victims, our gussets and their families. I believe 
this represents a very strong commitment to this very important 
area.
    We continue to learn ways to improve our performance and I 
hope these efforts demonstrate our commitment to our guests and 
to their well-being.
    Thank you again, Mr. Chairman, for inviting me here today. 
Cruising is one of the safest vacations a person could possibly 
take, as millions of people each year experience. I would be 
happy to answer any questions that you have.
    Mr. Cummings. Thank you very much.
    Mr. Kaye?
    Mr. Kaye. Mr. Chairman, members of the Subcommittee and 
other members, I want to thank you very much for inviting me to 
testify today concerning the legal regime for cruise lines in 
the areas of passenger security, law enforcement, crime and 
casualty reporting and U.S. jurisdiction. I am senior partner 
of a maritime law firm based in Los Angeles. I have been 
practicing law for almost 30 years, and my entire career has 
focused on maritime issues and international legal 
jurisdictional issues.
    I began my career as a Federal judicial law clerk to the 
Chief Judge of the Southern District of California. I authored 
the chapter in the leading legal treatise on cruise ships, 
Benedict on Admiralty, entitled Government Regulation, which is 
used today as a reference by judges, lawyers and educators. I 
have had the privilege of testifying before Congress and the 
California legislature concerning issues in the cruise industry 
and have bene consulted and retained as an expert witness in 
matters involving the legal treatment of cruise lines.
    I am counsel to most of the cruise lines operating in North 
America and to the Cruise Line International Association.
    I will tell you, in all honesty, the most important role I 
have in life is that of a husband and father of three children, 
two of whom are daughters. When I think of my own family, my 
heart goes out to every single victim of the kind of acts we 
have heard about today. Working in this industry for over a 
quarter of a century, I have personally observed the efforts of 
cruise lines to keep their ships safe. Frankly, nothing should 
have a higher priority. And I believe nothing does.
    The reality is that U.S. law enforcement agencies do have 
extra territorial jurisdiction under our present laws to 
investigate and prosecute crimes involving Americans on ships 
sailing on the high seas. And I believe the reach of the 
reporting requirements, as Mr. Chairman, you mentioned at the 
outset, do match the reach of the jurisdictional statutes. I 
believe they are in concert at the present time.
    More to the point, the FBI, as a matter of normal practice, 
is routinely requested by the cruise lines to ensure American 
passengers are protected wherever they travel. As a result, 
despite the unfortunate and inevitable tragedies that occur in 
an industry with more than 12 million patrons each year, cruise 
ships are and remain an extremely safe vacation choice.
    There are at least 20 statutes codified in Title 18 of the 
U.S. Code that create felonies for crimes committed in this 
special maritime jurisdiction. They extend to crimes in U.S. 
waters, crimes involving Americans on the high seas, and crimes 
involving Americans on foreign-flag vessels in foreign waters 
if the ship departs or arrives in the U.S.
    And just last year, Congress amended the abusive sexual 
contact statute, which is Section 2244 of Title 18, to make it 
a felony ``to engage in sexual contact with another person 
without that person's permission.'' Even in the absence of 
force, threats, intoxication or coercion, that felony is 
punishable by two years in a Federal prison. And with respect 
to the observation by Congresswoman Matsui, her concern about 
the lack of prosecutions, there are currently at least a dozen 
published court opinions upholding indictment and convictions 
of crimes at sea on passenger ships, both on the high seas and 
in foreign waters under these Federal statutes that I have 
described or similar State statutes that presently exist in 
Florida, California and Alaska.
    The cases that I have discussed all echo the bedrock legal 
principle of international law embodied in the United Nations 
Convention on the law of the sea, that a nation has 
jurisdiction over the citizens of its territory and a nation 
has jurisdiction over crimes that have an effect in its 
territory when the victim returns here. Now, when it comes to 
the reporting of crimes, Federal law does impose mandatory 
crime reporting requirements on all cruise ships sailing to or 
from the U.S. These are the regulations for the security of 
passenger vessels that were first enacted in 1996 and have been 
beefed up three times since. They do impose fines and 
penalties, including revocation of licenses and monetary fines.
    The cruise industry has always deemed those requirements to 
apply to crimes against Americans during any part of a voyage 
to or from the U.S., and it is interesting to note that those 
regulations define the term voyage as ``the entire course of 
travel from the first port at which the vessel embarks 
passenger until it is returned to that port.'' You heard the 
FBI testify earlier that those regulations do reach crimes that 
occur outside 12 miles and indeed, both the FBI in 2000 and the 
Coast Guard in 2002 published circulars saying that the 
regulations applied outside the 12 mile limit.
    But Mr. Chairman and members of the Committee, this is not 
an issue we need to debate. If anyone thinks the rules are 
unclear, let's work together to fix that. The people who most 
need to know it is clear are those that would perpetrate any 
sort of criminal act against my family, your family or the 
millions of families that travel on ships every year. All we 
need do is add a sentence to the regulations, the existing 
regulations that say, these regulations apply to any crime on 
any ship sailing to or from the U.S. I know of no one in this 
room today that would oppose such a measure.
    I want to conclude by mentioning very briefly that in 
addition to the very broad criminal jurisdiction and reporting 
requirements, passengers have complete redress to civil 
remedies under the civil justice system. And in fact, a much 
more stringent standard of liability applies in the cruise 
industry and to any comparable businesses on land. A guest in a 
hotel, theme park, resort, office building, restaurant or 
shopping mall could not hold any of those entities liable for 
an alleged assault by an employee absent negligent hiring of 
someone with a known criminal past. But if the same incident is 
alleged to have occurred on a cruise ship, this cruise line is 
strictly liable without regard to fault.
    We all know that money could never ease the pain a victim 
has endured. But that alone is a powerful incentive for cruise 
companies to eradicate crime.
    Mr. Chairman and members of the Committee, I have worked in 
this industry a very long time. The folks I know who see to our 
safety are good people with honest motives. They are mothers, 
father, sisters and brothers, no different than you and me. 
They routinely sail on these ships with their own families.
    But as long as anyone is victimized by a crime on a 
vacation cruise, we have failed to do our job. I sincerely hope 
we can work together with the Federal agencies to do whatever 
is needed to protect all of them. And I thank you very much.
    Mr. Cummings. Thank you. I thank all of you for your 
testimony.
    Mr. Dale, I want to go back to you. You said something that 
just struck my curiosity. You said that you would work to 
further clarify the agreement. What did you mean by that. You 
have heard, as you can see, that has been a theme that I have 
been sort of harping on. I am trying to figure out some 
solutions to problems. Unfortunately here in the Congress, 
things seem to happen slowly. I am trying to speed up the 
process. Probably one of the easiest ways to speed up the 
process is to get the industry working with the other partners 
to come up with some solutions. Then perhaps, hopefully we 
won't have to, but to back that up with some laws or some 
change of laws, whatever.
    But I think, when I listened to Mr. Bald, as I listened to 
him, I said, now, this just makes sense. It seems like the 
kinds of things that he is talking about that they are doing in 
Royal Caribbean are the kinds of things that Mr. Taylor was 
referring to. Probably need to do more.
    So I am trying to figure out, and I think all of you all 
expressed your concerns and sympathy and condolences with 
regard to the victims here. But I want to take, sympathy, that 
is important. But keep in mind why they are here. They are not 
here so much for themselves. They are here because they care 
about other people, people they don't even know, which says a 
lot. I am sure they spent their own money trying to get here, 
took off from work. So I am trying to figure out, I don't know 
what that means, further clarifying the agreement. Clearly, we 
have to revisit this agreement. I just want to hear what you 
had to say about that.
    Mr. Dale. I share your desire to work in an efficient and 
inclusive manner for this clarity. That means bringing the 
stakeholders together. We have been working for over a decade 
on our security committee with the FBI, who is a member of and 
participates, the Coast Guard, which is a member of and an 
active participant, CBP. Today, I extend the invitation to meet 
with the folks here today so that we are inclusive and that we 
hear their concerns and that we move forward in clarifying, if 
anything does in fact need further clarification.
    Mr. Cummings. So you are going to be willing to meet with--
--
    Mr. Dale. I will.
    Mr. Cummings. I would hope that you would include Mr. Bald 
in that.
    Mr. Dale. Absolutely.
    Mr. Cummings. The reason why I say that is because, as I 
listened to the things he said, and I have talked to him 
before. First of all, we have, and certainly to Mr. Mandigo, we 
have a lot of respect for the FBI. I think it was good, I have 
said it in private and I will say it in public, I think it is a 
very important move to take the security that seriously that 
you would get folks who have been in the FBI for over 25 years 
or whatever you all said to be a part of that.
    I guess the thing that I am wondering about is the things 
that they are doing at Royal Caribbean, are you all trying to 
make that industry-wide? Are you looking at other things in 
addition to those things? Because it sounds like we are on the 
right track?
    Mr. Dale. Absolutely. We need to be compassionate 
caretakers of our guests. The success of our future business 
depends on that. So across our entire fleet of 21 member cruise 
lines, we are developing and in many cases have already very 
solid programs in place for care of our passengers who are the 
unfortunate recipients of an unpleasant experience. But it very 
important to us as an industry.
    Mr. Cummings. One of the things that Mr. Bald said, and I 
kind of scribbled it down, but basically what he said was that 
although these things, when you look at the total picture, may 
happen infrequently, he has to be prepared for even those 
things. I don't want us to get so busy counting how many times 
it happens here or happens there that we lose the bigger 
picture. And that is the bigger picture that every single 
person needs to be safe, every single person needs to, I would 
love for Ms. Dishman to be in a position to say, you know what, 
because of all the things that have been done, I know I will 
feel comfortable walking onto a ship again. That is my goal. I 
am just telling you. I just hope that we can move more toward 
that.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    I apologize for not being here for your oral testimony, but 
I did have the chance in preparation for this hearing to read 
your written testimony. I thank you for your testimony today.
    While I think I am appreciative of your expressions of 
sympathy to earlier witnesses today, I think I was concerned by 
a number of other observations made during the hearing, Mr. 
Carver's experience in particular. I guess I am concerned how a 
passenger could disappear on the second day of a seven day 
cruise on a ship that spent a lot of time in U.S. territorial 
waters and there was no notification to the FBI and then 
obviously some other things followed. Could anyone on the panel 
tell us how you would respond to that today? Because clearly 
there wasn't such a hot response then.
    Mr. Bald. Mr. LaTourette, if I could respond to that. 
First, I would like to caveat my comments. It is very difficult 
to be in a situation such as this and to speak about a loss 
like Mr. Carver had and not appear to sound calloused. And I 
don't want that to come across that way. The loss that he 
suffered, I just can't imagine.
    But to respond to your question, there were some unusual 
circumstances involving Mr. Carver's daughter. She came on 
board with two purses and a manila envelope. She didn't come on 
with the normal luggage. That made it a bit more difficult for 
us to recognize that she had not been in her stateroom every 
day.
    However, having said that, our stateroom attendant did have 
her antennas up, his or her antennas up, and did report to the 
supervisor that the stateroom attendant felt that Ms. Carver 
was not spending time in her cabin. We made an error, our 
supervisor did not report that further. That is something that 
is absolutely against our policy. We dismissed that employee.
    However, it doesn't change the fact that Ms. Carver 
disappeared and that it took us an extended period of time to 
recognize that before it came to our attention and gave us the 
opportunity to report it.
    Your final question was, what would happen differently 
today. I believe that the policy that we have today is the same 
one we had in place at that time, and that is to report a 
missing person or a crime on board our cruise ships immediately 
to the FBI. The challenge for us in that situation was, the 
people that make that reporting to the FBI did not become aware 
of Ms. Carver's disappearance for an extended period of time. I 
would like to think that we have done enough in the way of 
education and training for our crew members to make sure that 
that doesn't happen again.
    Mr. LaTourette. I thank you very much for that response.
    I want to echo the Chairman's call that this thing really 
gets worked out best when all involved come to some 
accommodation and do it themselves. If it is dependent upon the 
Congress, we do move a little slowly. And actually, Mr. 
Chairman, the staff has reminded me that the Marconi operator 
on the Republic testified before the Congress in favor of 
having 24 hour telegraph operations in 1911. The Congress, in 
its speedy fashion, enacted those requirements in 1912, after 
the Titanic disaster.
    I want to talk a little bit about the training that the FBI 
agent talked a little bit about, specifically not focusing on 
any specific case. But do you know whether the training, either 
the FBI training that is currently ongoing or training that the 
industry is engaged in, is training the medical officers 
relative to rape kits and the collection of evidence and the 
preservation of evidence? Mr. Bald?
    Mr. Bald. Thank you, sir. I do not know whether the 
training that the medical personnel on board our ships is 
receiving involves the FBI. To my knowledge, it does not. 
However, the FBI has been extensively involved with us. They 
have trained, we have a program where they train each of our 
security officers on the securing of a crime scene or an 
incident scene, the preservation of evidence. I have worked 
with Charlie Mandigo, who has an initiative with the FBI to 
provide a train the trainer type training in those same areas 
at Quantico, Virginia. We will push that forward very quickly.
    As far as the rape kit, as you refer to it, the 
instructions, I have actually had the opportunity to look at a 
rape it. It is actually a pelvic examination kit. The 
directions for using that kit are on the inside of the top 
cover. Fortunately, we are dealing with medical doctors and 
they have a high level of intellect and a capability to apply 
those directions.
    One situation I would like to discuss briefly, in the 
situation of Ms. Dishman, to the extent that the information 
that has been reported today and that Ms. Dishman relates, that 
we had a medical officer who instructed a guest to return to 
her stateroom to collect evidence, that is not our policy. It 
is something that we have to correct through training, and I 
will make sure we do that.
    Mr. LaTourette. I appreciate that, and just so I'm clear, 
maybe that the suggestion would be, having handled a number of 
rape cases in my earlier life, there is nothing more important 
than the correct processing of, I call it a rape kit, when it 
comes to a variety of things. One, because it has the potential 
to imprison someone who is guilty, it also has the potential to 
exonerate someone who is not guilty. So it is really to 
everyone's best interest that that evidence be collected in a 
proper manner and go through a proper chain of evidence. 
Because defense lawyers are very skilled at destroying the 
chain of evidence.
    So I would just throw out that I would wish that the 
industry consider perhaps a little additional training on the 
collection, since sexual assaults seem to be things that people 
have talked about today.
    Then the last question, Mr. Chairman, if I could, when Mr. 
Carver testified he had attached to his testimony and on his 
web site, ten points that he wishes the industry would 
consider. And ask that either you, Mr. Dale, or Mr. Mandigo, if 
you have examined those 10 points and if you have any response 
to their efficacy.
    Mr. Dale. I have examined those. We will be happy to 
discuss those with him when we get together to clarify the 
agreement.
    Mr. LaTourette. Good. Mr. Mandigo?
    Mr. Mandigo. Yes. At the time those were received, they 
were reviewed in detail and responses were provided at that 
time to ICCL for consideration for their review.
    Mr. LaTourette. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Cummings. Mr. Mandigo, what did you just say?
    Mr. Mandigo. I said that we did have them and they were 
distributed throughout the industry for people like in my 
position to make comments on. They were in turn provided back 
to, at that time, ICCL.
    Mr. Cummings. Can we get a copy of that?
    Mr. Mandigo. I will make that inquiry.
    Mr. Cummings. I guess what I am trying to get to, before we 
go to Mr. Brown, I have been around here 11 years. And there 
are others who have been around here much longer than I have.
    But one of the things I notice about the Congress is that 
you can go around in circles all the time. I promised myself if 
God ever gave me an opportunity to be a chairman of a 
subcommittee, and He did, that I was going to try to get things 
done. It is nice to hear nice answers, and I think the reason 
why I am so impressed with Mr. Bald is because he actually, 
first of all, he admitted to things that were wrong. He said, 
we are going to address it, we have addressed it. That is why I 
said that I hope that he is a part of the process. Because that 
is what we need. We need to get this thing resolved, a can-do 
attitude. This is America. This is the United States. We sent 
folks to the moon. We ought to be able to protect our own 
citizens, no matter where they are.
    I think that Mr. Boustany a few minutes ago talked about 
prevention. That is what law enforcement is all about. You 
would love not to have a job, I am sure. So some kind of way 
that is in law enforcement, I know you want your job, Mr. Dale, 
but I guess what I am getting at is I am hoping that we just, I 
don't want a situation where Mr. Carver and Ms. Dishman come in 
and the pour their hearts out and then we wait until the next 
hearing and nothing has happened. I don't know when I met with 
you, Mr. Bald, not too long ago, but I have seen a lot happen 
ever since. And I have met with you in less than a month or 
two. And I have seen a lot happen just as a result of that 
conversation, which really impresses me.
    So all I am saying is, that is why I said, tell me, Mr. 
Dale, what do you mean by clarify. I don't know what clarify 
means. It doesn't mean very much to them. You can't see what I 
see, but they are saying, what does that mean, clarify?
    So all I'm saying is, I am hoping that we can move the ball 
down the field, to borrow a football expression.
    Mr. Mandigo. Mr. Chairman, if I could comment briefly. 
Within the kind of corporation we have, over 500 employees have 
been trained in care for these kinds of situations. They have 
responded to numerous incidents, both on ship and on ground. We 
have provided airfare, we have provided counseling, we have 
provided family support to these situations. Other things that 
are being done, as he has proposed, we are looking for 
technological solutions to address these issues of people going 
overboard, looking at some of the technologies that are out 
there. There are pilot projects in place that we are waiting 
for results.
    So it is not a question of sitting back and not doing 
anything, based on material some of the material that has come 
out of prior hearings. We are taking it very seriously, we have 
reviewed it and we have acted on it.
    Mr. Cummings. You are going to be meeting with them?
    Mr. Dale. Yes.
    Mr. Cummings. Then we will talk about some time lines. 
Because I do want time lines. I want to be able to revisit this 
so that we can see what kind of progress we are making.
    Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman. Let me just say thank 
you for holding this hearing to both you and the Ranking 
Member. I will be very brief.
    One of the things I was thinking in listening to the 
testimony, something that I always pushed is for female and 
minority participation. It would be very helpful in the law 
enforcement area that you have females and then female 
physicians. I am more comfortable with female physicians than 
male physicians, even though some times I do have very good 
male physicians. So that would be a recommendation that I would 
make, that part of your cure is to make sure that on the ships, 
you have female law enforcement people and female physicians to 
deal with incidents like this.
    Once again, I want to see the comprehensive recommendation. 
And I guess, let me ask you quickly, the question was whether 
or not it should be something in statute and someone commented 
how that we could add to make it in statute, or the 
recommendations that are moving forward, how do you feel about 
it? That is open to either one of the speakers, but 
particularly I want to hear from the lawyer.
    Mr. Kaye. Thank you, Ms. Brown.
    I think there are two issues here. One is clarifying that 
the reporting requirements do apply to any crime on a voyage to 
or from the U.S. That can easily be fixed at the regulatory 
level by simply amending the regulations. They have been 
amended three times since 1996. We shouldn't have any confusion 
over that. The industry isn't confused over that, but the 
agencies may be, from what I have heard today.
    So with regard to the ICD recommendations, I can verify 
that they have been very closely looked at. I sat down with Ken 
Carver, who is a wonderful human being, who has been suffering 
terribly at the loss of his daughter, sat down with him, we 
struck up a very good rapport. I have gone through those 
recommendations very carefully. Many of them were in place, but 
were unknown to the victims. Some of them have been added, as 
you have heard today. And some of them are still under review.
    The issue of putting a bracelet or an anklet on passengers 
is a tough one, because not every passenger wants to wear it. 
So if they don't wear it, you can't get the benefits of the 
technology. But there may be other ways.
    Ms. Brown. I think the last time I was on a ship, they do 
put something on you when you get ready to leave, when you go 
into a certain port, then when you come back they double check 
it or something. So there is something in place as we speak.
    Mr. Kaye. Yes, there is an APass with your picture on it 
that is swiped and registers your presence on the vessel 
whenever you come or go. In the Merrian Carver instance, I 
believe that the passes were not being swiped at the 
termination of the cruise. And I believe that has been changed 
throughout the ICCL membership, so that every passenger, when 
leaving the ship at the end of the cruise, has to swipe the 
card. So now we have a record of anyone who didn't get off at 
the end of the cruise. That was a direct result of the Merrian 
Carver incident.
    Ms. Brown. Yes, Mr. Bald.
    Mr. Bald. Thank you, Congresswoman Brown, and thank you for 
your help in your prior life in assisting our many happy guests 
and booking cruises on our cruise ships.
    To your first point, where you discussed the need to have a 
woman involved in situations, our policy is and will continue 
to be that the senior-most female officer on board our ship is 
assigned as a liaison to any female claim victim. We don't pass 
judgment on whether or not her claim is valid. We assign that 
woman and she is responsible for interacting on a day to day 
basis outside of an investigative component to meet her needs 
and to make sure that we are not overlooking something that 
would make her experience easier.
    Ms. Brown. I also mentioned the medical as far as the 
physicians on board. I guess I am talking about hiring 
practices as you move forward, that would be helpful.
    Mr. Bald. I agree with you completely. In fact, we have 
changed the backgrounds of the people that we are looking to 
hire at the security department. I have sent my director over 
to personally do interviews in furtherance of a pilot project 
that we have on board. I have given them specific instructions 
to include women in that hiring process. We have actually been 
successful in recruiting some very outstanding women to play a 
role in security for us.
    Mr. Kaye. And one last point, Mr. Chairman, if I can 
briefly make this, the cruise industry since 1993, I believe, 
has had a very close working relationship with the American 
College of Emergency Physicians. Starting in, I believe, 1995, 
we adopted the American College of Emergency Physicians 
recommendations and guidelines for cruise ship medical care, 
which includes many, many things. But to address your point, 
they include only using licensed physicians who have certain 
levels of experience in certain areas, typically emergency 
medicine. Emergency medicine physicians, in turn, typically 
have experience with rape victims and trauma victims. So that 
is why most of the members carry rape kits and are equipped to 
use them.
    Mr. Cummings. Members, we have nine minutes before the 
vote. If you have questions, please. Mr. Taylor?
    Mr. Taylor. Mr. Bald, I am curious. A previous panel that 
had said, and I want you to tell me if this is correct or not, 
that a theft of less than $10,000 is not investigated by the 
FBI. Is that accurate?
    Mr. Bald. Sir, my understanding is that the FBI is 
implementing a prosecutive threshold established by the United 
States Attorneys Office that says anything below $10,000 loss 
will not be prosecuted federally. That does not mean that it 
doesn't end up getting looked at by law enforcement. In fact, 
we will refer a situation below $10,000 to a State or local or 
foreign law enforcement agency if the FBI declines to pursue 
the investigation.
    Mr. Taylor. Okay. For instance, cruise ship sails out of 
New Orleans. So you are going to tell me, with all of New 
Orleans' problems right now, lack of a police force right now, 
basically if $9,000 is stolen from a passenger on a cruise ship 
that sails out of New Orleans, do you think it is going to get 
investigated?
    Mr. Bald. We will report that to the FBI. If the FBI tell 
us they will not investigate it, we will do our very best to 
find a law enforcement agency that will. As you can appreciate, 
the United States Attorneys Office sets thresholds. It does 
have an impact on us and on our guests.
    Mr. Taylor. When you said everything that should have been 
done with regard to Ms. Dishman's cabin was not done, what 
should have been done?
    Mr. Bald. Sir, in response, I am going on the information, 
some information that has been brought to my attention over the 
last week. It came out in a deposition from a crew member. It 
was information that was not previously known to Royal 
Caribbean. And so generally it falls under the category of 
adequately securing the cabin. The cabin was ordered to be 
secured. There are now questions that are being raised as to 
whether or not that cabin was adequately secured. That is what 
I was referring to.
    Mr. Taylor. Is there a national registry where under the 
subject of let the buyer beware that a potential cruise ship 
customer could check out the history of a ship with regard to 
both allegations and convictions, resulting from allegations 
and actual crimes that took place on a ship or a given vessel?
    Mr. Dale. I am not aware of that, Congressman.
    Mr. Taylor. Well, I guess my question, Mr. Dale, is what 
good does it do to keep track of this if I, for example, wanted 
to board a Norwegian Cruise Line ship out of New Orleans, fill 
in the blank of a name, if I wanted to check out the record of 
that ship before I got on board?
    Mr. Dale. The point of sale for our industry begins with 
our travel agents. They research the alternatives for their 
customers and based on their research they make a 
recommendation on the appropriate fit for that customer.
    Mr. Taylor. Okay. Lastly, going back to the vice grips, 
$12.95, that Wal-Mart was able to keep track of, now I realize 
that there are only a limited number of portals at that store. 
But I had a very disturbing letter from someone from South 
Mississippi who also lost a loved one overboard. With the 
limited knowledge I have of maritime issues, I can see the 
challenge of trying to keep track of losing people overboard. I 
have personally been so seasick where I was tempted to jump 
overboard and just kill myself. So I can understand that 
situation.
    But given people who didn't want to jump, someone who may 
have tripped, someone who for whatever reason slipped, has 
anyone ever approached your industry with what you considered a 
reasonably priced device that would make you aware that someone 
has either intentionally or unintentionally fallen off your 
vessel?
    Mr. Mandigo. Mr. Congressman, we have two pilots that are 
being conducted now that address that situation. And cost is 
not a factor in it. It is rather expensive, but that is not the 
consideration. They look very promising and we should be seeing 
results coming up in the next few months as to the ability to 
detect a person that goes overboard on a vessel.
    Mr. Taylor. Is that from the lack of a signal being 
emitted? Is it from a signal that is emitted by contact with 
seawater? What triggers the device?
    Mr. Mandigo. It is an infrared device with smart technology 
to detect heat signals.
    Mr. Taylor. In the water?
    Mr. Mandigo. Off the side of the vessel.
    Mr. Taylor. Okay, so something like a flare.
    Mr. Mandigo. Something seen projecting more than minimal 
distance off the side of a vessel, based on a heat signature, 
it can distinguish if it is a person, sea gull, deck chair.
    Mr. Cummings. We are trying to wrap this up. Ms. Matsui?
    Ms. Matsui. Thank you, Mr. Chairman. I know we are going to 
have to go for a vote. But I must say that, Mr. Bald, you have 
been at Royal Caribbean since June, is that right? And from 
your testimony, written and which you have talked about here, 
it seems like you are moving ahead in a way which we believe is 
optimistic.
    Mr. Bald. Thank you.
    Ms. Matsui. Now, Laurie, I guess you came after Laurie had 
her situation. I must say, though, if I didn't know anything 
else that was going on today and I just came and listened to 
your panel, I would have thought that everything was great. The 
cruise industry is fun, it is safe. I really have to say, I 
don't believe we would have even come to his point if we could 
have this hearing today, if you didn't hear from Laurie, if you 
didn't hear from Mr. Carver. Because quite frankly, it is very 
difficult to push against an industry like yourself.
    So I am hopeful, I know that you expressed your sorrow and 
your condolences. But hopefully you go beyond that. Because as 
Laurie says, she doesn't want another Ms. Dishman following up. 
I must say, I am going to hold your feet to the fire. Because I 
want to make sure that we can work together. I think the 
victims want to do this. And I think we should tear down those 
walls and say we have to work together. Because I want a 
successful, safe cruise industry. I want to be able to know 
that my constituents or anybody else, and Mr. Kaye, you have 
expressed feelings about your own daughters. Well, I want to 
make sure that my little granddaughter can go on there, too.
    So everyone should take this very personally. If we do 
that, I think we are moving in the right direction. Mr. 
Chairman, I thank you so much for having this hearing. I know 
that everybody appreciates it very much. Thank you.
    Mr. Cummings. Thank you. It is my understanding that Mr. 
Larsen has no questions. But thank you.
    Thank you, Ms. Matsui, for requesting the hearing. I really 
appreciate it. We thank all of you.
    I want to be very clear. We are going to revisit this issue 
in six months. In six months, I hope that the parties will get 
together and work together and see where we can build on, what 
we can build on. Mr. Bald, I would appreciate it if you, and 
you, Mr. Mandigo, and Mr. Dale would get us--Mr. Kaye said 
there are certain things that are already being done. I want to 
know what those are. I want to know what things happen from 
this day forward, particularly since there is an agreement now 
in place.
    And to Mr. Carver and Ms. Dishman, we want you to stay in 
contact with our staff, so that we can move this along.
    I am convinced, I am thoroughly convinced that we can make 
a difference. All of us coming together as Americans, we have a 
can-do Country. We can do this.
    Thank you very much.
    [Whereupon, at 1:45 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    

</pre></body></html>
